<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2010
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS
                   NITA M. LOWEY, New York, Chairwoman
 JESSE L. JACKSON, Jr., Illinois    KAY GRANGER, Texas
 ADAM SCHIFF, California            MARK STEVEN KIRK, Illinois
 STEVE ISRAEL, New York             ANDER CRENSHAW, Florida
 BEN CHANDLER, Kentucky             DENNIS R. REHBERG, Montana
 STEVEN R. ROTHMAN, New Jersey      
 BARBARA LEE, California            
 BETTY McCOLLUM, Minnesota          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Nisha Desai Biswal, Craig Higgins, Steve Marchese, Michele Sumilas,
                   Michael Marek, and Clelia Alvarado,
                            Staff Assistants

                                ________

                                 PART 4

                     STATEMENTS OF OUTSIDE WITNESSES

<GRAPHIHC(S)  NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations




STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2010
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS
                   NITA M. LOWEY, New York, Chairwoman
 JESSE L. JACKSON, Jr., Illinois    KAY GRANGER, Texas
 ADAM SCHIFF, California            MARK STEVEN KIRK, Illinois
 STEVE ISRAEL, New York             ANDER CRENSHAW, Florida
 BEN CHANDLER, Kentucky             DENNIS R. REHBERG, Montana
 STEVEN R. ROTHMAN, New Jersey      
 BARBARA LEE, California            
 BETTY McCOLLUM, Minnesota          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Nisha Desai Biswal, Craig Higgins, Steve Marchese, Michele Sumilas,
                   Michael Marek, and Clelia Alvarado,
                            Staff Assistants

                                ________

                                 PART 4

                     STATEMENTS OF OUTSIDE WITNESSES


<GRAPHIHC(S)  NOT AVAILABLE IN TIFF FORMAT>

                                _________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 55-310                     WASHINGTON : 2010






                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington          JERRY LEWIS, California         
 ALAN B. MOLLOHAN, West Virginia      C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                   HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana          FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York              JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York            RODNEY P. FRELINGHUYSEN, New 
 ROSA L. DeLAURO, Connecticut         Jersey
 JAMES P. MORAN, Virginia             TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts         ZACH WAMP, Tennessee
 ED PASTOR, Arizona                   TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina       ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                  JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island     KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York         MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California    JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                 MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois      ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan      DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                  JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania           RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey        KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia      JO BONNER, Alabama
 MARION BERRY, Arkansas               STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California              TOM COLE, Oklahoma         
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 ------ ------                      

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2010

                              ----------                              

                                         Wednesday, March 25, 2009.

                            PUBLIC WITNESSES

             FISCAL YEAR 2010 INTERNATIONAL PROGRAMS BUDGET

    Ms. Lowey. Good morning. The Subcommittee on State, Foreign 
Operations, and Related Programs will come to order, and I want 
to welcome each of our distinguished witnesses to the 
Subcommittee on State, Foreign Operations, and Related Programs 
hearing on the president's Fiscal Year 2010 International 
Affairs Budget Request.
    As you know, the president submitted a budget request of 
$51.7 billion for programs under the jurisdiction of this 
Subcommittee, and I commend President Obama for submitting an 
honest and transparent budget that does not rely on 
supplemental funding to hide the true cost of our defense, 
diplomatic, and development commitments.
    I would note for the record that, while it is a robust 
budget for international affairs, when you factor in the nearly 
$11 billion emergency funding that was appropriated or 
requested in Fiscal Year 2009, the Fiscal Year 2010 request is 
only a 7 percent increase over 2009. While 7 percent is still a 
lot of money, we face great challenges.
    The Secretary also faces the daunting task of rebuilding 
the capacity of the State Department and USAID so that we do 
not overextend our military to do jobs that normally fall to 
our civilian agencies.
    I want to thank all of our witnesses for coming to our 
Subcommittee to present your views on the Fiscal Year 2010 
budget request. Our public witnesses, along with all of those 
submitting written testimony for the record, represent a broad 
cross-section of interests and, collectively, provide a 
critical commentary for this Subcommittee to consider as we 
move forward with crafting the Fiscal Year 2010 Appropriations 
Bill.
    Unfortunately, our time constraints require us to limit the 
number of witnesses presenting oral testimony this morning. We 
are, however, very interested in reviewing all outside 
perspectives and will include in the hearing record the written 
testimony of each individual and organization that submits 
testimony to the Subcommittee regarding the Fiscal Year 2010 
budget.
    So I look forward to hearing your testimony this morning. 
Please limit your oral remarks to five minutes. We have a 
distinguished group of witnesses this morning, and I want to 
provide each of you with sufficient time to make your 
statement. Your full written statements will be made part of 
the record.
    I also want to apologize in advance because I have to duck 
out for a few minutes for another obligation, but my 
distinguished vice chairman, Congressman Jesse Jackson, will 
handle the gavel with great distinction as well. Thank you very 
much.
    The Asia Foundation, Douglas Bereuter.
                                         -------

                                         Wednesday, March 25, 2009.

                          THE ASIA FOUNDATION


                                WITNESS

HON. DOUGLAS BEREUTER, PRESIDENT
    Mr. Bereuter. Madam Chairwoman, Vice Chairman Jackson, Mrs. 
Granger, and Members of the Subcommittee, thank you very much 
for giving us a chance to make some testimony today for you.
    Of course, the United States and Asia face unprecedented 
challenges. This is, of course, impacting the developing world.
    I think it is fair to say that the Asia Foundation, with 55 
years of experience as the premier nonprofit, nongovernmental 
organization operating in Asia, has an unmatched credibility 
and is an irreplaceable American international asset.
    The Foundation is now, more than ever, poised to help 
America's standing in the world by addressing some of Asia's 
most urgent needs and, with its strong credibility and 
expertise, to contribute through sound and cost-effective 
programs.
    With this experience, credibility, and expertise, coupled 
with a largely Asian staff--about 80 percent of our staff are 
Asian nationals--the Foundation is really, I think, in a 
position to make a significant impact for the United States and 
to help Asians.
    The Foundation has a long-term, on-the-ground presence, 
through its 17 Asian field offices. We are opening two more 
this year. It works with hundreds of established and emerging 
Asian partners, about 800 partners every year. Generations of 
Asians from all walks of life know of our programs across Asia, 
in part, through our Books for Asia program, which, last year 
sent over 1.1 million books to Asia, over 40 million, total.
    With higher security and operational costs in Asia, and 
Foundation programs more needed than ever, a funding increase 
is critical for us this year.
    Why are they critical? Well, they are crucial to our 
capacity to do more to advance America's interests in Asia. 
Other current and potential donors need to be assured that the 
U.S. Government supports the Foundation's effort.
    Thus, with the congressional appropriation, the Foundation 
is able to leverage funds from other donors to increase the 
impact of programs, including funds from the private sector.
    As a result, the multinational and bilateral development 
organizations have increasingly begun to see the value of the 
Foundation's assets, and they have helped fund a wide variety 
of critical democracy and development programs. But the 
critical point is that all of those funds, public and private, 
are tied to specific projects, and they do not allow the 
flexibility for us to address urgent needs as they arise.
    One thing we can do: We can respond quickly, much more 
quickly than a government. Only congressional funding, through 
this appropriation, provides that flexibility and allows the 
Foundation to maintain its expensive, on-the-ground presence in 
Asia and respond quickly to new developments. That on-the-
ground presence is important in establishing our credibility. 
We have been working, for example, with Muslim organizations in 
some countries for over 35 years.
    So modest increases for the Foundation have a great impact 
on the lives of people in Asia, and I will give you a number of 
examples of the areas we are working in: women's empowerment, 
democracy, rule of law, working with election training. We 
trained, for example, over 60,000 election workers this last 
year alone in places like Bangladesh, Pakistan, and Nepal.
    A few words about our mission. The Foundation is committed 
to the development of a peaceful, prosperous, just, and open 
Asia-Pacific region. America's investments in Asia help restore 
our country's credibility and effectiveness, as needed, to 
enhance more effectively the multifaceted programs that we 
implement.
    I will give you some examples of the four areas that we 
work in.
    I recently returned from Phnom Penh, Cambodia, where I had 
a chance to see some of the partners we work with on women's 
rights issues and dealing with girls that were incredibly 
abused, girls as young as six years of age, and it would not 
work without our on-the-ground presence in Cambodia.
    The Asia Foundation is, first and foremost, a field-based, 
grant-making organization committed to maximizing our program 
impact in Asia while keeping costs low, despite the growing 
challenges of providing security for our field office staff.
    About the only thing that keeps me awake at night is the 
security of our personnel in Afghanistan and Pakistan and, 
occasionally, in Timor.
    So, as I mentioned, we work with local partners. It gives 
us credibility. It gives us effectiveness. We are trying to 
establish a capability that is there after we leave that 
program, but we do not leave the country, and that is 
reassuring to our partners.
    Let me say a number of things in conclusion. While the 
Foundation has had major programming in Asia since 1954, the 
Asia Foundation Act, enacted in 1983, uniquely provides for an 
annual appropriation from Congress. The Act acknowledges the 
importance of stable funding for the Foundation, and it 
endorses its ongoing values and contributions to U.S. interests 
in Asia.
    At the current level of $16 million, the Foundation is only 
now approaching the higher levels of appropriation it received 
in the early 1990s. Since that time, the Foundation's 
appropriated funds base has shrunken in relative and absolute 
terms.
    Therefore, we very much appreciate the Committee's trust 
and faith in providing us funds above the Executive Branch 
figures during the recent years. But I am pleased to say that 
this administration has dramatically boosted the figure that 
they sent forward, to $16.23 million, I think it is.
    These funds have been invaluable in giving us the capacity 
to achieve results and fulfill our mission to advance U.S. 
interests. Objectively, however, we believe that this level of 
funding is insufficient to meet today's important opportunities 
and challenges.
    The modest increase we are asking for is funding at $19 
million for Fiscal Year 2010. It is essential that the U.S. 
take advantage of the Foundation's expertise and unique 
credibility for the development of stable, democratic, and 
peaceful societies in Asia.
    In making this request, we are very much aware of the 
Fiscal Year 2010 budgetary pressures on the Committee, but the 
small increase requested of $19 million would be among the 
best, most cost-effective foreign affairs dollars that you 
spend. That is my view. I think I had that view even before I 
left here since I was a strong supporter of authorization for 
the Asia Foundation, along with Congressman Berman.
    It would enable the Asia Foundation to strengthen program 
investments it has begun in recent years with congressional 
encouragement, such as our continued, but accelerated, work in 
predominantly Muslim countries, including Afghanistan, 
Indonesia, Pakistan, parts of southern Thailand, and Mindanao 
in the Philippines.
    If the Committee provides these funding levels for the 
Foundation programs in this fiscal year, I pledge, 
specifically, to direct the use of those funds to expand 
programs that build democratic capacity, strengthen civil 
society, increase economic opportunity, empower and protect 
women--political and economic empowerment--and antitrafficking 
work.
    Thus, we respectfully urge the Committee to sustain and 
increase its support for the Asia Foundation and thus increase 
our shared commitment to addressing today's challenges and 
opportunities in Asia and Asian-American relations.
    Thank you so much for listening. I appreciate the fact that 
the full testimony will be part of the record because I give 
you a lot of examples of our work. I would be happy to answer 
questions.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lowey. Congressman Bereuter, I just want to tell you 
that it was a delight to work with you when you were in the 
House, and it is a pleasure to work with you now. I know of 
your excellent work in Asia, and I certainly appreciate and am 
aware of the involvement of your people in Afghanistan and 
Pakistan, and, given the extraordinary risks that they face 
every day, I just want you to know how much we appreciate your 
efforts, and I thank you very much.
    Mr. Bereuter. Thank you. Our largest program is 
Afghanistan. We have about 160 people there, and we work with 
the president's office, the women's ministry, and a whole 
variety of education programs. We run the fiscal affairs of the 
new American University in Afghanistan.
    Ms. Lowey. I know we will be talking more about it as the 
administration continues to review our policy in Afghanistan, 
and I would be interested in your views.
    Mr. Bereuter. Thank you.
    Ms. Lowey. Thank you very much.
    I am very pleased to have Dr. John Server with us today 
from Rotary International, a member and vice chair. Thank you.
                              ----------                              

                                         Wednesday, March 25, 2009.

                         ROTARY INTERNATIONAL 


                                WITNESS 

JOHN SERVER, M.D., Ph.D., MEMBER AND VICE CHAIR
    Dr. Server. Thank you very much, Chairwoman Lowey, Vice 
Chair Jackson, Ranking Member Granger, and Members of the 
Subcommittee.
    I am the vice chairman of the Rotary International Polio 
Plus Committee, and I am an emeritus professor of pediatrics 
and infectious diseases at the Children's Hospital here in 
Washington and of George Washington University.
    I appreciate this opportunity to present testimony in 
support of the continuation of funding at not less than $32 
million for Fiscal Year 2010 for this Polio Eradication 
initiative of the U.S. Agency for International Development.
    The Global Polio Eradication Initiative is an unprecedented 
model of cooperation between national governments, civil 
societies, and the United Nations agencies working together for 
many years now to achieve the global public good of eradication 
of this disease.
    The goal of a polio-free world is definitely within our 
grasp because polio-eradication strategies have worked, and 
continue to work, even in the most challenging environments.
    Let me just mention a little about the progress that has 
occurred to eradicate polio.
    This international effort has made tremendous progress, 
thanks to this Subcommittee's leadership and with your 
appropriation of funds to the USAID.
    Only four countries in the world remain endemic and 
continue to have the naturally occurring polio. Those are the 
northern parts of Nigeria, the northern parts of India, and 
parts of Pakistan and Afghanistan. That is the lowest number of 
infected countries in history.
    The number of polio cases has fallen, from 350,000 in 1988 
to no more than 1,600 in 2008, so that is about a 99-percent 
reduction in the number of cases of polio. Actually, we were 
having a thousand cases of paralytic polio a day. Today, we 
have just a little over a thousand cases in a year.
    There are new tools that we have available now to complete 
this job. These are new monovalent vaccines, as well as new 
laboratory diagnostic procedures. We also are using tailored 
tactics for each country, to fully incorporate information in 
the intensified eradication effort.
    The prospects for polio eradication are bright, but 
significant challenges remain. For example, in the four endemic 
countries, there are issues that range, for the campaign, in 
terms of quality, security, and funding.
    In addition, we need to deal with outbreak responses, which 
occur from individuals leaving those countries and going into 
an adjacent country, such as the Democratic Republic of the 
Congo, Angola, and Sudan. We are dealing with those. They are 
tragic, and they are costly reminders that no child is safe 
until polio has been eradicated everywhere.
    Just to mention the role of Rotary International in this 
effort and our continued commitment and the goal of more than 
32 Rotary Clubs throughout the world and in 170 countries, a 
membership of over 1.2 million business and professional 
leaders, of which more than 375,000 are in the United States, 
has been committed to battling polio since 1985.
    We recently reaffirmed our commitment to achieve polio 
eradication, and we are in the midst of our third fundraising 
effort. This is a Rotary $200 million challenge, which we are 
raising right now over a period of three years, in response to 
an extraordinary challenge grant of $355 million for global 
polio eradication from the Bill and Melinda Gates Foundation.
    So by the time the world is free of polio, Rotary's 
contribution to global polio eradication will exceed $1.2 
billion, second only to that of the United States.
    In addition to providing financial support, Rotarians in 
other donor countries are working to ensure that their 
countries are supportive of this program, particularly G-8 
members, and that they continue their financial commitment.
    Meanwhile, our Rotarian leaders in the remaining polio-
affected countries work to ensure the political commitment of 
those countries in completing the polio program, all the way 
from the ground level--the individual people going out and 
immunizing--to the level of heads of state.
    We are doing our best to ensure that we finish the job 
which has made such great progress, and making the stakeholders 
accountable is the way we can achieve that.
    Now, the role of the U.S. Agency for International 
Development started in April of 1986, and, with the support of 
the 104th Congress, as urged by this Subcommittee, USAID 
launched its own Polio Eradication Initiative to coordinate the 
agency-wide efforts to help eradicate polio. Congress has 
continued its commitment to polio eradication since that time. 
Some of USAID's 2008 polio-related achievements, I would just 
like to mention to you.
    First, USAID is supporting the rapid outbreak response by 
investigations and immunization in newly infected countries or 
parts of countries. AID is working through the USAID-funded 
Compass Project in the highest-risk areas in, finally, 11 
states in Nigeria to improve immunization coverage in those 
states. We need to complete that area.
    The polio project supports the improved use of women's 
groups, religious leaders, and medical associations and 
exemplifies the advocacy of the local government authority.
    Supporting immunization campaigns is continuing by USAID in 
Ethiopia, Sudan, Somalia, and other countries, and funding 
active surveillance and laboratory in India, where they have 
supported 200 surveillance officers, to guarantee that polio is 
being detected and that immunization is going on; and also, in 
Pakistan, Afghanistan, and Indonesia, as well as they support 
of all of the laboratories in the region with accreditation 
visits, cell lines, reagents, and laboratory training.
    Now, these are just a few of the areas, important ones, 
that are funded by USAID. Other examples are in my testimony.
    Ms. Lowey. Thank you. Thank you for your testimony, and the 
complete testimony will be placed in the record.
    We share your concern as well, and we are worried that 
because of instability--we know what is happening in 
Afghanistan and Pakistan--that rather than eradicating polio 
completely, as was our goal--we certainly have been on the 
verge of doing so--that it could continue being a problem.
    So I thank you for your testimony, and I commend you and 
the Rotarians for your commitment.
    Dr. Server. Thank you.
    Ms. Lowey. Thank you.
    Ms. Granger. Before you leave, just as a fellow Rotarian 
and a Member of this Subcommittee, congratulations on a really 
extraordinary program. When it was introduced, as a polio 
survivor myself, I said, you know, this is something that we 
all need to be aware of, and you have done just an exceptional 
job. Thank you.
    Dr. Server. Thank you, and we appreciate the strong support 
of all Rotarians in this effort.
    Mr. Jackson. Madam Chair, may I make an observation also?
    Ms. Lowey. Certainly.
    Mr. Jackson. Madam Chair, let me thank Dr. Server, a past 
witness. There is a specific line in his testimony that 
probably needs to be iterated, and that is, ``We respectfully 
request that you maintain level funding of $32 million for 
USAID's polio-eradication activities.''
    I am sure, in all of the testimony that we are going to 
hear today, there is a similar line in everyone's testimony. 
Please make sure that it gets delivered. Thank you, Madam 
Chair.
    Ms. Lowey. Thank you very much. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 25, 2009.

                           EURASIA FOUNDATION


                                WITNESS

HORTON BEEBE-CENTER, PRESIDENT
    Mr. Beebe-Center. Thank you very much, Madam Chairwoman, 
Mr. Vice Chairman, and distinguished Members of the panel, for 
the opportunity to speak before the Committee today.
    The mission of the Eurasia Foundation is to promote 
prosperity and stability throughout the Eurasia region by 
supporting the institutions of open, pluralistic, and 
entrepreneurial societies. Our programs enable citizens to 
participate in the civic and economic life of their own 
countries and to connect with the wider world.
    The Eurasia Foundation was conceived as a pioneering 
venture and remains one to this day. It was present at the 
creation of some of the most influential institutions in the 
region, for instance, the leading association of independent 
newspaper publishers in Russia and the most successful small 
business lending program in Armenia.
    Today, we support programs ranging from delivery of child 
immunizations in Western Ukraine, following last year's 
disastrous floods, to a cross-border program in Tajikistan that 
trains Afghan women to better educate girls.
    The Eurasia Foundation is distinguished from other 
organizations by its origins, its geographical focus, and its 
commitment to localizing its activities.
    The concept for the Eurasia Foundation emerged from the 
State Department in 1992, shortly after the breakup of the 
Soviet Union, and our partnership with the U.S. Government and 
its core financial support has been essential to our work over 
the years.
    Second, our geographic focus on the former Soviet Union and 
its immediate neighborhood has enabled the Foundation to evolve 
to suit the particular needs of the Eurasia region.
    Finally, we focus on building local institutions that can 
sustain reform efforts over the long term, and, in the last few 
years, we have taken this commitment to its logical conclusion 
by transforming our field offices into a network of locally-
chartered foundations.
    The Eurasia Foundation Network, which consists of those 
four local foundations plus our Washington, D.C., office, 
represents a unique asset that can deliver targeted investments 
to support independent media, public administration reform, and 
small business development efforts more efficiently than 
governments.
    The Eurasia Foundation Network can extend the reach of the 
U.S. Government investment by leveraging significant financial 
support from other sources and also serve as an enduring link 
to complex societies vital to American interests.
    Not only the United States, but the entire world, has a 
stake in the development of stable, prosperous nations in 
Eurasia. As you well know, the region is rife with hot spots. 
Recent political upheavals and the global economic crisis 
remind us of the fragility of the patchy progress of the 
region, over the last few years, towards prosperity and 
stability.
    Half of the 12 countries in the region are Muslim nations, 
and engagement with the entire region is essential for 
management of the world's most pressing international 
challenges, yet, despite the importance of the region to 
American interests, U.S. Government funding to assistance 
programs has consistently declined over the last several years. 
This reduction in investment has been slowed by Congress, which 
has regularly increased administration requests.
    In the case of the Eurasia Foundation, our annual 
allocation from the State Department has fallen, from about $30 
million in Fiscal Year 1999 to about $11 million in Fiscal Year 
2008.
    Several years ago, we intensified our private fundraising 
efforts, and, today, the network is able to leverage private 
sources to match U.S. Government support about one to one.
    Two years ago, the Eurasia Foundation began efforts to 
secure legislation authorizing separate funding in the State 
Foreign Operations Appropriation Bill. We engaged both the 
House and Senate authorizing committees and secured bipartisan 
support in both chambers.
    The House passed the measure in 2007, and the Senate 
Foreign Relations Committee reported the bill out last spring. 
Unfortunately, holds were placed on the bill, and it died at 
the end of the last session. Efforts are underway to secure 
authorizing legislation this year.
    Congress, over many years, has supported the work of the 
regional foundations that operate in Africa, Asia, and Latin 
America. We heard from one just earlier, Mr. Bereuter, of the 
Asia Foundation.
    The Eurasia region is as critical to our national security 
and American interests as all of those other regions, and the 
U.S. Government has, for a decade and a half, invested in the 
Eurasia Foundation to serve as America's regional foundation in 
this crucial geographic region. We have leveraged investment 
with other donors and have built a unique network of local 
foundations covering the entire region.
    It would be a great loss if these assets were allowed to 
scatter, and it is essential to formalize U.S. Government 
financial support for the Eurasia Foundation Network so that it 
can continue to serve this crucial function in the future.
    I conclude by requesting your support for separate line 
item funding for the Eurasia Foundation in Fiscal Year 2010 in 
the amount of $15 million. If that is not possible, I ask for 
your strongest endorsement of the work of the Eurasia 
Foundation and its importance to U.S. development goals in the 
countries of the former Soviet Union.
    Thank you very much.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lowey. Thank you, and I want you to know that we 
appreciate your hard work and your commitment to the tremendous 
challenges in that region. As you know, at this moment, the 
budget, the appropriations process, is up in the air, but we 
certainly will take your request into consideration.
    Mr. Beebe-Center. Thank you very much, Madam Chairman.
    Ms. Lowey. Thank you. Howard Kohr, AIPAC, and thank you for 
joining us.
                              ----------                              

                                         Wednesday, March 25, 2009.

                                 AIPAC


                                WITNESS

HOWARD KOHR, EXECUTIVE DIRECTOR
    Mr. Kohr. Thank you for the opportunity, Madam Chair, and I 
also say, once again, it is an honor to be here. I also want to 
take note that I am here with my colleague today, Esther Kerrs, 
who is joining me as well.
    Thank you again for this opportunity, and I do want to take 
note of the fact that we believe the historical fact that this 
is the first time that a woman is chairing the Subcommittee and 
is also the Ranking Member of this Subcommittee.
    Ms. Lowey. I am glad you acknowledged that, and the chief 
clerk, too. We have a couple of males here, too. [Laughter.]
    Mr. Kohr. The chief clerk as well, yes. We are delighted 
that this change is taking place.
    We are here today to testify on behalf of the president's 
request of $2.775 billion in assistance to Israel this year, as 
well as to lend our name in support for the overall account. We 
fully believe that a robust foreign operations account is a 
very important tool in American foreign policy, and I would 
urge this Subcommittee and the full Committee and the rest of 
the Congress to see the importance of this, both the assistance 
to Israel, as well as a robust foreign aid account.
    What I would like to do is to establish, just very briefly, 
the overall context in which this assistance is being made; 
first, to say thank you to the Subcommittee for supporting last 
year's levels and recognizing that this was also part of a 10-
year overall commitment that was made between the United States 
and Israel, and this year represents the second year of that 
commitment.
    It comes at a time when Israel and the United States 
continue to face a very turbulent and dangerous Middle East, 
and the cost of defending both Israel and the United States 
continues to go up.
    At this hour, if you take a look at the region, just to go 
over a couple of examples here from a strategic context, the 
fact of the matter is that Iran and her allies continue to be 
on the march. The fact is that Hamas, which was engaged in a 
war with Israel just a couple of months ago, is supplied by the 
Iranians and, to this day, continues to fire rockets upon 
Israel. Just to give you some sense, 175 or so rockets have 
landed in Israel in the last month alone, something that no 
nation can live with for a long period of time.
    On Israel's northern border is the threat faced by 
Hezbollah, and, again, Hezbollah, an arm of the Iranians, 
continues to create instability in Lebanon and continues to 
threaten Israel. At this point in time, we understand that they 
are armed now with some 60,000 rockets and mortars, which is a 
dramatic increase from where they were even two years ago.
    Syria remains in the Iranian orbit, again, on Israel's 
northern border, a challenge for both the United States and 
Israel. Efforts, we know, are underway to try to pull Syria out 
of the Iranian orbit, and, obviously, if that could be done it 
would be a welcome strategic change, but the fact is, the 
Iranians are still deeply involved and we apparently have 
learned, if sources are to be believed in the press, that the 
Iranians have actually helped fund not only the cooperative 
projects taking place in Syria but may have actually been 
involved in the funding of this nuclear project in Syria, which 
is something that we believe requires further looking into to 
understand what has actually taken place there.
    Obviously, the most dramatic piece, at this hour, is that 
the Iranians are moving ever closer to acquiring a nuclear 
capability. This is something we believe needs to be at the top 
of the American agenda. The threat of a nuclear Iran poses not 
just a danger to Israel and our other allies in the Middle 
East, but, frankly, it poses global instability here and a 
challenge to the U.S. interests around the world, and this is 
something we believe needs to be of paramount attention. We 
believe there is still time to do something about this, and, at 
this moment in time, it requires American leadership as well.
    For those reasons, we believe the support for Israel and 
Israel's defense, which is represented in the request that is 
being made, is something that we hope will merit the support of 
this Subcommittee, as well as the full Committee and the 
Congress. Thank you for this opportunity to testify.
    Ms. Lowey. Thank you very much, and I think there is a 
clear understanding on this Committee of the important 
relationship between the United States and Israel, and I look 
forward to seeing peace in that region of the world in my 
lifetime.
    Mr. Kohr. We all do, Madam Chair.
    Ms. Lowey. Thank you very much.
    Mr. Kohr. Thank you.
    Ms. Lowey. The Nature Conservancy, William Millan.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                         Wednesday, March 25, 2009.

                         THE NATURE CONSERVANCY


                                WITNESS

WILLIAM MILLAN, SENIOR POLICY ADVISOR FOR INTERNATIONAL CONSERVATION
    Ms. Lowey. The Nature Conservancy, William Millan. Welcome.
    Mr. Millan. Madam Chairwoman and distinguished Members of 
the Committee, thank you for the opportunity to testify today 
for the Nature Conservancy. We are very honored.
    You already have our testimony for the record, so, rather 
than trying to read it or summarize it, I would just like to 
say a few words from the heart and then perhaps leave time at 
the end for a question or two.
    The Nature Conservancy is a private conservation charity 
that, each year, raises and spends more than $400 million from 
private donations to do conservation in 50 states and 34 
foreign countries. Of that, about $60 million pays for our 
international conservation operations. We also benefited, last 
year, from slightly less than $7 million of grants from USAID. 
We are grateful for every penny, and we wish it could be more.
    We are also grateful for the support that this Committee 
and the Congress have traditionally shown for the international 
conservation mission.
    If we could win the battle for the conservation of natural 
resources and biodiversity around the world by raising our 
private funds, we would do so, but the unmet needs are so 
enormous that we recognize that only governments can do that.
    To that end, we have formed an alliance with the great 
conservation organizations of the world, with World Wildlife 
Fund, Conservation International, and the Wildlife Conservation 
Society of New York, now joined by the Pew Trusts, with the 
goal of trying to raise the numbers on government support to 
international conservation to a level more commensurate with 
the needs.
    I might add, we are also working with allies in Europe to 
get the Europeans to do more, and with some success, and I can 
provide details at the end, if there is time.
    Our most urgent hope is that, in this year, it is possible 
to raise the conservation line item in the USAID budget from 
the current level of $195 million to $275 million. There are 
other lesser asks.
    We recognize that this is not entirely within the control 
of the Committee. The world is living through the greatest 
financial crisis since the 1930's, and all of us have to be 
reasonable in our expectations. But we are confident, Madam 
Chairman, that you and the other Members of the Committee 
regard our work and the work of the other great groups with 
confidence and support and that you will do the best that you 
can under the circumstances of this year.
    A couple of weeks ago, we had a public launch of this 
document on the Hill, which Senator Tom Udall attended and 
Representative John Tanner and several other congressmen and 
many members of the staff. This is the International 
Conservation Budget. It describes these programs, the success 
stories, and so forth.
    Jane Goodall was there in person and spoke about the 
wonderful work that she does, not only for the chimpanzees but 
for hundreds of thousands of people who live nearby, and 
Wangari Maathai of Kenya provided a special statement by video, 
and I will end by paraphrasing the remarks of Dr. Wangari 
Maathai.
    She said, in her country of Kenya, poor people are 
constantly forced to make disastrous choices because of the 
circumstances under which they live. They cannot think about 
the future of conservation because they have to get through 
this week, this month, this year.
    She said, ``Those of us who have an education, who have 
some money, need to help them.''
    That, Madam Chairman, is the core of our take-away. We do 
not say that conservation of natural resources and biodiversity 
is the solution to the miseries of the poor countries of the 
world, but what we do say is it is an element of the solution. 
All of the conservation programs put together only add up to 
one percent of the foreign assistance budget.
    We endorse the president's call for an increase in foreign 
assistance. We endorse the call for a rebuilding of the 
administrative capacity of USAID, and we hope that you will do 
your very best to increase the conservation function, if you 
can. Thank you, Madam Chairman and Members of the Committee.
    Ms. Lowey. Thank you so much, and I know this Committee 
appreciates your important work, and I look forward to working 
together to get the overall budget at the level that the 
administration has requested, and we understand the importance 
of your work in that context. I thank you.
    Mr. Jackson. Madam Chair, the Conservancy requests $275 
million, slightly above the president's request of $195 
million, but I also see, Mr. Millan, that the director of your 
government relations is requesting that the Committee make its 
best efforts to pay a substantial portion of the U.S. arrears 
to the GEF, Global Environmental Facility. The arrears are 
currently $170 million, of whose payments would leverage more 
than a billion dollars in projects on the ground, the director 
of government relations says.
    Can you share with us what some of those projects on the 
ground are, in that additional request?
    Mr. Millan. Absolutely. The Global Environment Facility is 
the implementing agency for six of the great international, 
multilateral, environmental agreements, including for climate 
work, for chemical pollution, for conservation, for the 
convention of biodiversity.
    About a third of the money that they spend goes for what we 
would call ``conservation projects.'' The rest goes for other 
types of environmental cleanups and for climate action.
    Mainly, under the Clinton administration, the president 
asked for the money for our annual quota and was not able to 
get it, and so the United States built up $170 million worth of 
arrears.
    In the early years of the Bush administration, they paid 
down some of this, but then that gradually declined, and so now 
it is back up to $170 million.
    A number of countries have paid their quotas but have 
fenced the money. They have given the money to the GEF, but 
they have said, ``Until the U.S. pays its arrears, you cannot 
spend this portion of our money.''
    So if the U.S. is able to make a substantial down payment 
on our arrears, some of that fenced money would be released. 
Then if the U.S. provides 20 percent of the budget of the GEF, 
other countries provide 80, so we are automatically leveraged 
four-to-one. You then get a local match, typically, of three-
to-one. So every dollar of U.S. contribution ends up being $10 
or $12 on the ground, and there is just a host of very good 
projects being funded for this.
    For example, the Coral Triangle, which is an initiative for 
marine conservation in East Asia, the GEF has pledged $60 
million for that. So this would help facilitate that type of 
work.
    Mr. Jackson. Thank you, Madam.
    Ms. Lowey. Thank you. We share your concern and your 
commitment, and we just have to have enough of an allocation so 
we can meet all of the tremendous challenges out there.
    Mr. Millan. We are crossing our fingers.
    Ms. Lowey. Thank you so much.
    Mr. Millan. Thank you. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 25, 2009.

                               INTERNEWS


                                WITNESS

JEANNE BOURGAULT, CHIEF OPERATING OFFICER/SENIOR VICE PRESIDENT FOR 
    PROGRAMS
    Ms. Lowey. Internews, Jeanne Bourgault. Welcome.
    Ms. Bourgault. Madam Chairwoman, I want to thank you and 
the Committee for your longstanding support of independent 
media around the world. I am representing Internews Network, a 
California-based, nonprofit organization that, in the past 27 
years, has worked in over 70 countries and trained over 70,000 
journalists and media professionals around the world.
    I, first, want to put my issues that I am going to talk 
about today into context. Let us think about the numbers. In 
the world today, two billion people are connected to the 
Internet, and 3.5 billion are connected via cell phones. Many, 
many more are within broadcast reach of radio and television. 
In five years' time, it is likely that the entire planet will 
be digitally connected.
    The digital media space is where people live, and if you 
want to reach people where they live, you will agree with us 
that local media development and digital communications 
technologies should be the centerpiece of foreign assistance 
modernization.
    I would like to start today by thanking the Committee for 
your continued endorsement of HIV/AIDS journalism training 
programs in Kenya, Ethiopia, Nigeria, and India, as well as 
your support to media development on the Thai-Burma border. My 
written testimony discusses these programs in more detail.
    I would also like to thank the offices within the U.S. 
Government where our issues are starting to really resonate, 
particularly in USAID and in the Department of State.
    But, today, I want to talk about the strategically 
important region of South Asia, where we are finding that a 
very cheap and effective tool of stabilization is the 
microphone.
    My first picture here was captured on the border of 
Afghanistan and a radio listening to one of the 36 community 
radio stations we have helped build, with the generous support 
of USAID, since the fall of the Taliban. Many of these stations 
that we have built are reaching villages and communities that 
had never before been reached by a broadcast.
    Remarkably, for Afghanistan, four of these stations are 
managed by women. More remarkable still is the fact that all of 
them are continuing to run, despite the fact that several of 
them have been destroyed and have been rebuilt in the past few 
years. These stations are deeply rooted community institutions, 
and their outlets for national news is so necessary to 
cultivate a sense of nationhood in the very, very fragile 
Afghanistan.
    My second picture comes from Pakistan. These are pictures 
of IDPs, following the 2005 earthquake, where we were able to 
build a network of humanitarian radio stations in the affected 
regions.
    Media investments in Pakistan are equally as important as 
they are in Afghanistan. In the settled areas of Pakistan, 
there is a vibrant media sector, but we are not seeing the 
exploding numbers of journalists that are able to produce the 
quality, public-interest programming so desperately needed in 
that country. The disturbing stories of illegal hate media 
emerging in the tribal areas of Pakistan is a very increasing 
concern.
    That said, there are emerging beacons of hope. One of these 
is Khyber Radio, a small station that provides news to the 
people in the border regions of the Fatah. Khyber Radio is 
gutsy, producing independent broadcast news. In this 
conservative region, the station airs both male and female 
journalists.
    Internews has worked with Khyber Radio to develop news 
programming that focuses on local issues that matter to the 
local people. It entertains, and it informs, opening a much-
needed civic space within an extremely conservative community. 
Stations like Khyber Radio are truly part of the solution for a 
stable, democratic Pakistan.
    Unfortunately, this summer, Internews faces a potential 
closeout of our extraordinary program in Pakistan. We urgently 
need the Committee to support media development in Pakistan.
    I also want to request that the Committee consider 
continuing your support in 2010 for the important HIV/AIDS 
journalism programs in Nigeria, Kenya, Ethiopia, and India, as 
well as your support for independent media in the cross-border 
region on the Thai-Burma border.
    In conclusion, I want to reiterate that the free flow of 
information is key, not only to democratization and 
development; it is also essential to the empowerment of 
citizens to participate in a global society.
    From training the newest generation of Pakistani 
journalists to produce balanced, accurate news to building 
community radio stations in the heart of Taliban territory, 
Internews is proud to be at the forefront of this global 
movement.
    Thank you very much, and I would be happy to take any 
questions.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 25, 2009.

                           GRAMEEN FOUNDATION


                                WITNESS

ALEX COUNTS, PRESIDENT
    Ms. Lowey. Thank you so much. When this Committee was in 
Dada, Pakistan, in the earthquake region, dedicating a school, 
I think many of us were surprised to see the awareness and the 
sense of understanding among the young girls. Now I understand 
why, so thank you.
    Ms. Bourgault. It is the humanitarian media programs where 
we really feel the impact most acutely. We have humanitarian 
radio programs in the border region of Chad, servicing refugees 
from Darfur, as well as in post-tsunami Aceh and post-
earthquake Pakistan, and, there, the community media saves 
lives every single day.
    Ms. Lowey. Thank you.
    Ms. Bourgault. Thank you very much.
    Ms. Lowey. I am now going to turn the gavel over to Vice 
Chairman Jackson.
    Mr. Jackson [presiding]. Thank you Madam Chair. Presenting 
the Grameen Foundation, Mr. Alex Counts, President.
    Mr. Counts. Thank you very much. Mr. Vice Chairman and 
Members of the Committee, I am very pleased to be here today. I 
would note that I am representing the Grameen Foundation, 
though I also chair a coalition called the ``Micro-enterprise 
Coalition.''
    As you know, poverty is one of the great global problems 
that we are facing, and it is one that is worsening: 100 
million people more in poverty as a result of the financial 
crisis. It is also a problem, from my six years of living in 
Bangladesh, that I concluded was linked to many of the other 
problems facing the world, whether it be the AIDS crisis, the 
population crisis, the environmental crisis, the lack of full 
democratic rights by so many in the world.
    I do not know if you read yesterday's New York Times. There 
was an article about the fourth-largest city in Haiti, Gonaive, 
and one of the things that it said in that article, it was very 
gloomy about how this city was devastated by the hurricanes 
that hit last fall, but, in the very last paragraph, it quoted 
the manager of the local branch of Fancose, a micro-lending 
organization in Haiti, and it said that Fancose was helping to 
lend to businesses there to get people back on their feet.
    It reminds us--I wish the article would have spent more 
time on that--that microfinance is actually helping to get 
people back on their feet, rebuilding and building across some 
of the most devastated places in the world, and a lot of that 
is as a result of U.S. Government support of microfinance over 
the last 30 years.
    I would like to briefly summarize five arguments of why I 
think microfinance allocation, micro-enterprise allocation, 
should be increased to $304 million in this coming fiscal year.
    Number one, microfinance has been one of the most studied 
and researched social interventions of all time, and it shows a 
sustained impact on poverty, on women's empowerment, on 
nutrition, on education, and, in fact, we, at the Grameen 
Foundation, we put out a publication a few years ago, which I 
will leave with the Committee, summarizing the 90 most-credible 
impact studies of microfinance, and it showed that it truly 
works. This is something that works.
    The second argument I would put before the Committee is 
that microfinance has gone to a very large scale, reaching 150 
million families, after its beginnings in Bangladesh with the 
Grameen Bank and elsewhere.
    One of the things we have learned is that the 
infrastructure we put in place to provide microfinance to these 
150 million families, that what that means, in fact, is, every 
morning, hundreds of thousands of loan officers go out to meet 
with the women borrowers of microfinance to do their business.
    What we have learned is that those people, and the 
credibility that they have with the poor, give them 
opportunities to not just to financial business but also to 
bring messages and products and tools to address issues of 
health, of democratic participation, of education, and many 
other things.
    So leveraging this platform is, in fact, one of the 
breakthrough ideas in addressing health and other crises that 
the poor face because this infrastructure, unlike a lot of 
infrastructures that touch the poor, is actually paid for by 
the poor themselves through the interest that they pay on the 
loans to the microfinance.
    So we have got this highway with small feeder roads 
reaching into virtually every village and urban slum in the 
world, paid for by the poor, which is a route to bring them 
services that they would not get from other sources, or they 
would get much more expensively.
    The third is that microfinance, because of its size, if we 
can make even small changes in the business model, the 
operating model, there is a big potential impact. If we can, 
for example, increase the efficiency of microfinance, decrease 
interest rates by one percent globally through innovation, it 
would mean $200 million more in the pockets of the world's 
poor. That is $200 million for them to address nutrition and 
health and education needs that they have and also to energize 
local economies.
    Fourth, and it is really two issues in one, a lot of us 
have been promoting the commercialization of microfinance, 
bringing private capital in to fuel the growth, and we think 
that that was the right move. It is why microfinance is so big 
today. Otherwise, it would be limited to philanthropic 
resources.
    However, this has led to two unintended consequences, in my 
mind.
    One is, a lot of MFIs, with their private financiers, are 
going for the better offer, when we think that public resources 
can help refocus microfinance on the most vulnerable poor, 
where the impact could be the greatest.
    The second impact of commercialization is that many private 
financiers are under pressure, looking to withdraw or slow down 
their investment in microfinance.
    So at just the time when microfinance is needed most, 
growth is slowing, or even being reversed, by many microfinance 
organizations. As a result, to keep that growth going, even at 
a slower pace, will require public investment, particularly 
during this time.
    So, with that, I will just thank the Subcommittee for 
giving me this opportunity to testify.
    Mr. Jackson. Thank you, Mr. Counts.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 25, 2009.

               FRIENDS COMMITTEE ON NATIONAL LEGISLATION


                                WITNESS

BRIDGET MOIX, LEGISLATIVE SECRETARY
    Mr. Jackson. Our next witness is Bridget Moix of Friends 
Committee on National Legislation. Welcome to the Subcommittee, 
Bridget.
    Ms. Moix. Thanks very much, Vice Chair Jackson and Members 
of the Subcommittee. Thank you for the opportunity to speak 
with you today.
    My name is Bridget Moix. I work with the Friends Committee 
on National Legislation, leading the program on peaceful 
prevention of deadly conflict. For those of you who may not 
know our organization, we are a nonpartisan Quaker lobby in the 
public interest. We are the oldest registered religious lobby 
in the United States, and we work with a community-based 
network of individuals and groups across the country, although 
we do not claim to represent all Quakers.
    Since its founding over 65 years ago, FCNL has worked to 
help heal the wounds of war and promote just and lasting peace. 
In our early years, we lobbied Congress to support the Marshall 
Plan to rebuild after World War II.
    Today, we work to increase U.S. commitments and funding to 
head off wars before they begin, and that is what I would like 
to speak with you about today.
    Now, many high-level government officials, with much more 
experience than I, have already come before Congress to talk 
about the need to increase investments in our civilian 
capacities. The threats that we face today, as a world 
community--problems of weak and failing states, genocide, 
poverty, global health pandemics, violence against civilians, 
and proliferation of weapons, small and large--cannot be solved 
through military might.
    Secretary of Defense Gates, himself, has said, ``Our 
toolbox must be equipped with more than just hammers.''
    We, at FCNL wholeheartedly agree, and we thank this 
Subcommittee for its work in strengthening civilian capacities.
    Today, I would like to suggest some small, but highly cost-
effective, ways that this Subcommittee can help fill the U.S. 
toolbox with more effective ways to prevent problems from 
turning into crises and deadly conflict.
    Many in Washington are now advocating the three Ds: 
defense, diplomacy, and development. We would like to suggest a 
slightly different approach for this Subcommittee, in 
particular, that we call ``DDI'': diplomacy, development, and 
international cooperation, with a focus on prevention.
    First, diplomacy. We welcome and urge support for the 
administration's proposals to expand the diplomatic corps and 
stand up a civilian response corps. These are critical tools 
for preventing and responding to conflict.
    In addition to having the people power, though, our 
civilian agencies need more flexible and rapidly accessible 
funding to respond to emerging crises.
    In recent years, the Department of Defense, as you know, 
has been given broad, new authorities and funding to respond to 
unfolding events in the field, but our civilian agencies, the 
State Department, in particular, remain crippled by a lack of 
quick-response funds.
    To fill that gap, we urge this Subcommittee to support the 
creation of a Crisis Response Fund within the State Department, 
beginning at a level of $50 million. Such a fund would give the 
Secretary of State and civilian leaders the ability to respond 
to an escalating crisis in real time, before violence erupts.
    It could support regional peace-making initiatives, shuttle 
diplomacy, local police and community-safety efforts, or 
assistance to U.N. peace operations.
    Second, development. We join others in calling for 
elevating development assistance as a core pillar of U.S. 
foreign policy and rebuilding USAID. We also support the 
current efforts in Congress toward comprehensive foreign aid 
reform. In that context, we urge greater support for programs 
which seek to address root causes of conflict and help 
societies transition from war to peace. Offices like the 
Conflict Management and Mitigation Office in USAID, or the 
Office for Transition Initiatives, should be expanded and 
strengthened.
    In addition, we urge the Committee to provide new funding, 
through existing development accounts, to support programs 
which address root causes of conflict. The recent Genocide 
Prevention Taskforce has a proposal for $200 million in new 
funding, through existing accounts, to help address latent 
conflicts so they do not explode into violence.
    Finally, international cooperation, or, as the Quaker Peace 
Center in South Africa likes to say, ``Peace is a group 
effort.''
    The U.S. needs healthy international and regional 
organizations that can help prevent and respond to crises. We 
thank the Subcommittee for its work to bolster contributions to 
the United Nations and urge full payment of our debt, which now 
stands at $1 billion, this year.
    We also urge support for specific mechanisms in the 
international system which can help prevent and respond to 
conflict. The U.S. Peace-building Commission is a new tool 
which needs further support, and the U.N. Least-developed 
Countries Fund is helping poor countries mitigate the effects 
of global climate change. We believe this fund, in particular, 
needs a significant increase in funding.
    To sum up, we believe, at FCNL, that the best use of the 
international affairs budget is to prevent deadly conflict 
before it starts. Small investments in DDI--diplomacy, 
development, and international cooperation--could save billions 
of dollars and countless lives. Thank you very much.
    Mr. Jackson. The Friends Committee has been our national 
conscience on human rights, poverty, and humanitarian aid. Your 
points today are well made and very thought provoking.
    I know that the administration is seeking to address these 
concerns. The Committee, as always, provided the administration 
with the needed tools to respond to these crises. Bridget, we 
want to thank you for your testimony today.
    Mr. Rehberg.
    Mr. Rehberg. Just a quick question, if I might. I notice, 
in your resume, you talk about being an adjunct professor, and 
you brought in speakers from five different groups. What are 
the other religions that take an active role in promoting 
peace?
    Ms. Moix. You are referring to a class I taught on 
religions and their role in conflict and peace-making. We 
looked at five major religions. I think, in most every 
religion, you can find actors working towards peace. We looked 
at Christianity, Islam, Judaism, Buddhism, and Hinduism, and, 
in all of those, you can find peace-making work.
    Mr. Rehberg. Thank you.
    Ms. Moix. Sure.
    Mr. Rehberg. Thank you for your testimony.
    Ms. Moix. Thank you. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 25, 2009.

                        AMERICAN BAR ASSOCIATION


                                WITNESS

MICHAEL GRECO, PAST PRESIDENT
    Mr. Jackson. Mr. Michael Greco, past president of the 
American Bar Association. Mr. Greco, welcome to the 
Subcommittee, and we look forward to your testimony.
    Mr. Greco. Thank you, Mr. Vice Chair. Vice Chair Jackson 
and Members of the Subcommittee, my name is Michael S. Greco. I 
am past president of the American Bar Association (ABA) and 
currently serve on the board of directors of the ABA's Rule of 
Law Initiative. On behalf of the ABA, I thank you for this 
opportunity to address the importance of congressional funding 
for programs that promote the rule of law throughout the world.
    With more than 400,000 members in the U.S. and overseas, 
the ABA is the largest voluntary, professional-membership 
organization in the world, with expertise in virtually every 
area of the law.
    The ABA does many important things. Perhaps the most 
significant is advancing the rule of law, both at home and 
abroad. Internationally, we do this through our Rule of Law 
Initiative, which I will refer to as ``ABA ROLI.''
    ABA ROLI is a nonprofit, public-service program grounded in 
the belief that advancing the rule of law is the most effective 
way to deal with the pressing problems facing the world today, 
including poverty, conflict, corruption, and disregard for 
human rights. In doing this, we promote political stability, as 
well as economic and social development.
    We are very mindful of the current U.S. financial 
situation, but we believe that foreign assistance funding for 
rule-of-law programs is a vital and necessary long-term 
investment that is in the U.S. national interest.
    Thus, on behalf of the ABA, I urge that the Subcommittee 
continue to support the robust funding for international rule-
of-law and democracy programs like ABA ROLI.
    ABA ROLI's work is guided by several core principles, 
including providing apolitical, nonpolitical, technical 
assistance and advice in building sustainable local capacity.
    Our programs focus in seven areas: first, access to justice 
and human rights; anticorruption and public integrity; criminal 
law reform and anti-human trafficking; judicial reform; legal 
education reform and civic education; legal profession reform; 
and women's rights.
    ABA ROLI implements programs in over 35 countries around 
the world, including Mexico, China, Russia, Ethiopia, Lebanon, 
Bahrain, Georgia, Kyrgyzstan, Armenia, and others.
    We often talk about phrases like ``the rule of law'' in 
almost ideological or theoretical terms. Terms and principles 
are important, but it is helpful to look beyond them to see the 
actual impact of these programs on our fellow human beings in 
such need around the world, and ABA ROLI's work in the 
Democratic Republic of Congo is just one example. Let me speak 
to you briefly about this program.
    The DRC, arguably, has suffered more tragedy and 
devastation than any other African country in the last century. 
The Second Congo War, which began in August 1998, has claimed 
nearly five and a half million lives. Despite the January 2000 
peace accord, armed conflict continues today, mostly between 
government troops and militias.
    Women, however, are among the most frequent targets of this 
ongoing conflict, with rape used as a weapon to destroy them, 
their families, and their villages. In the last 10 years, 
hundreds of thousands of women and girls have been raped, many 
of them gang raped, with victims ranging in age from three to 
75 years.
    In early 2008, ABA ROLI opened its office in the city of 
Goma to help address the world's most severe rape crisis. Our 
program provides legal assistance to these women and girls, 
helps the provincial bar association in providing pro bono 
assistance, and trains police, lawyers, prosecutors, 
magistrates, and judges to investigate, prosecute, and 
adjudicate these cases.
    We also operate a legal aid clinic that has helped dozens 
of rape survivors file charges and testify against their 
assailants.
    Since we opened our Goma office, there has been a 
substantial increase in the number of rape convictions in the 
region.
    Let me conclude with this thought: Congress's financial 
support of ABA ROLI has helped legal systems and institutions 
throughout the world to be grounded in the rule of law.
    How do we do this? By building sustainable, local capacity. 
This is a critical component of U.S. foreign assistance efforts 
to foster democracy and development. Our programs are a cost-
effective way of doing this. We believe, very simply, that a 
just rule of law is the single best foundation for stability, 
prosperity, and security, both in the United States and 
throughout the world.
    Thank you for your past support that has made ABA ROLI's 
programs so instrumental in advancing the rule of law, and 
thank you for what we hope will be your continued support for 
this important program.
    The ABA is pleased to provide further information, if you 
need it, and I am happy to respond to any questions that the 
Members of the Subcommittee may have.
    Mr. Jackson. Mr. Greco, we have seen many of the ABA's 
programs around the world. Your colleagues provide vital 
technical assistance to help establish governance to 
institutions around the world. The Committee has historically 
supported this critical component of the ABA's mission. We 
thank you for your testimony.
    Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman. Just, a philosophical 
question of you, and that is, as I have traveled around some of 
the countries that are struggling with new governments--DRC, 
Uganda, some of the others--I think I have finally come to the 
conclusion that one of the reasons their government is having 
difficulty is because they do not separate the judiciary from 
the presidency.
    First of all, would you agree with that or not?
    Mr. Greco. I agree with that, and, you know, I am from 
Boston, Massachusetts. I do not want to be provincial, but John 
Adams, who wrote the Massachusetts Constitution on which the 
U.S. Constitution is based, made it clear that what 
distinguishes a democracy from a tyranny is an independent 
judiciary, and without an independent judiciary, freedom really 
is at risk or does not exist.
    Mr. Rehberg. I guess my question, then, would be, how can 
the Congress, not dictate, not mandate--my job is not to figure 
out how to create a democracy in a country that clearly does 
not understand a democracy, or there may be something that they 
feel better governs them--how do we, financially, say, ``You 
get the money, except, or unless, you separate the judiciary 
from the presidency?''
    What happens is they immediately come up with a 
constitution. They establish a two-term limit, and then the 
first thing they do is they go in to change the constitution so 
they can have their third term, and they control the judiciary. 
We almost exacerbate their problem. We are not solving it. We 
are not creating any of the solutions.
    Can we do that? Can we wall off money, from your 
perspective, and say, ``Unless you separate the judiciary, 
forget it''?
    Mr. Greco. Well, a very important question. It goes to the 
heart of what ABA ROLI does, really.
    The short answer is, we cannot order it. We cannot dictate, 
but what we can do is use the vast resources of American 
judges, lawyers, and law professors to go in and to 
demonstrate, to teach, that, without a independent judiciary, 
you have anarchy, and you have tyranny.
    Mr. Rehberg. So you would not tie our financial assistance.
    Mr. Greco. No. We have had examples of that in the last 
administration, and it does not work. There are ways of 
accomplishing what you are suggesting, and the ABA is doing it.
    We have a judicial index in these countries that 
demonstrates how they are failing, by failing to protect the 
judiciary, how they are failing to protect the fundamentals of 
freedom in these countries.
    Mr. Rehberg. Mr. Chairman, do you know, is that one of the 
categories within the Millennium Challenge, that they had to 
meet a certain standard. Places like, I think, Senegal or Benin 
are a couple of the locations that were online for Millennium 
Challenge dollars.
    Mr. Greco. I do not know the answer, but we will answer 
that question when I go back. We will provide the Subcommittee. 
Maybe you know the answer.
    Mr. Jackson. Mr. Rehberg, I have been advised by staff that 
good governance is a criterion within the Millennium Challenge 
criteria, but I am not sure that the question of an independent 
judiciary is specifically delineated in that criteria, but when 
we have the director of the MCC before us, that might be 
something that we press at that time.
    Mr. Rehberg. I would appreciate that. I have never really 
verified my assumption about the separation of the judiciary--I 
do not know whether is true or not; it just seems like it.
    Mr. Greco. Yes. Thank you for the question. Thank you for 
the opportunity. I would like to give you this report because 
there may be some information in here that is broader than your 
question, and we will make available copies of this very recent 
report of the ABA ROLI programs that covers judiciary issues 
and covers the full array of issues that I have briefly tried 
to touch on this morning.
    So, if I may, Mr. Congressman, I will----
    Mr. Rehberg. I would appreciate that.
    Mr. Greco. Thank you very much for your courtesies.
    Mr. Jackson. Thank you, Mr. Greco.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                         Wednesday, March 25, 2009.

                           ARMENIAN ASSEMBLY 


                                WITNESS 

VAN KRIKORIAN, MEMBER OF THE BOARD OF DIRECTORS
    Mr. Jackson. Representing the Armenian Assembly, Mr. Van 
Krikorian, a member of the Board of Directors of the Armenian 
Assembly.
    Mr. Krikorian, welcome to the Committee, and we look 
forward to your testimony.
    Mr. Krikorian. Thank you, Vice Chairman Jackson.
    Congressman Rehberg. I am going to adopt the model that 
some of the other witnesses have taken and not speak from my 
testimony; you have that in front of you.
    I want to start by, as others have, thanking you, 
individually and institutionally. I think that this 
Subcommittee, the Congress, in particular, has done the United 
States very proud in very many ways over the years by seeing to 
it that U.S. values are promoted; and promoting U.S. interests 
through these appropriations and endeavoring to use U.S. funds 
as wisely as possible.
    To address the point that you did make earlier, though, Mr. 
Vice Chairman, the specific numbers that we are here to testify 
on behalf of, for the Republic of Armenia, not less than $70 
million; for the Nagorno Karabakh Republic, not less than $10 
million; for FMF for Armenia, not less than $4 million; and, 
for IMET for Armenia, not less than $1 million.
    With that out of the way, I would like to pick up, I think, 
on the first point I made and Congressman Rehberg's question. 
We actually do believe strongly that Congress ought to examine 
and put conditions on aid from time to time. This example of 
countries adopting a constitution, adopting laws on paper and 
not enforcing them, the classic problem that we saw during the 
Soviet era; you are exactly right. They adopt a constitution 
with term limits, and, the next thing you know, the term limits 
are amended away, and that does not promote anything that is 
any good for any of the people.
    That term, ``the people,'' is also one that we especially 
appreciate that the Congress has dealt with by making sure, 
increasingly, I think, that U.S. aid goes to benefit people and 
not to benefit corrupt governments and practices that will not 
pass muster with the American people.
    Armenians, I think, stand in an unusual position. Many of 
us owe our lives, our families' lives, as survivors of the 
genocide, to the assistance that the United States rendered. I 
know that is certainly the case in my family and many others, 
and I think that is reflected in the permanence of the ties 
between the United States and Armenia and Armenians all over 
the world, actually. Those ties, since independence, have 
grown, politically, economically, culturally, increasingly 
militarily.
    I think Armenia stands in the unusual position of being a 
former Soviet country that not only maintains these excellent 
ties with the United States but also maintains excellent ties 
with Russia. In this era of resetting our foreign policy, I 
think that is important, and I think there are some lessons 
that can be learned.
    I think that when you look at foreign assistance, one of 
the ideas that has always been present, and actually lectured 
on by one of our organization's founders, who sadly passed away 
this year, Professor Brusarian, is that using foreign 
assistance as a model for other countries in areas where you 
can show that something works and then apply it in other places 
is one that ought to be pursued.
    In that regard, Armenia stands in a unique position, I 
believe, first of all, because you have so many Armenians with 
a foot in both the West and the East, if you will. You also 
have a fairly small country, nimble enough, whose economy can 
change. That economy, though, is constrained, if not strangled, 
by the blockades imposed by Turkey and Azerbaijan.
    This Committee and this Congress have been excellent, over 
the years, in terms of trying to alleviate those problems.
    We are very much encouraged and pleased with President 
Obama's position on the Armenian genocide. We are encouraged 
with Secretary Clinton's consistent position on the Armenian 
genocide, as well as Vice President Biden's. We expect that 
Armenia and Turkey are going to be in the press in the coming 
weeks and months as President Obama goes to Turkey.
    We sincerely hope that this rapprochement that is taking 
place between Turkey and Armenia continues but not at the 
expense of rewriting U.S. history, and, I will note, that it 
take place according to the rule of law.
    There are treaties in place, the same treaties that set the 
border between Turkey and Armenia, that guarantee that the 
border will be open to Armenia. Turkey has violated those 
provisions pretty much without repercussion.
    I see that I have four seconds left, so I am going to thank 
you again. I hope I did not talk too fast, and, again, let me 
reiterate our appreciation and wish you good luck. Thank you.
    Mr. Jackson. Thank you, Mr. Krikorian. Mr. Krikorian, 
Armenia is in danger of losing parts of its MCC compact because 
of concerns about its governance. As a friend of Armenia, what 
can we do to make sure that Armenia does not further erode 
progress on good governance and lose economic assistance?
    Mr. Krikorian. I think it would be helpful if, first of 
all, Members of Congress let the Armenian government know that. 
I can say that, in Armenia itself, there is substantial freedom 
of speech. There are people who are just as concerned about the 
factors that MCC is taking into account. I can tell you, as an 
Armenian-American, we are concerned about it, and we raise our 
voices about it, and we talk about it with the Armenian 
government. I think, the more people they hear that from, the 
better that it is.
    In this regard, too, as we noted in the testimony, we felt 
as though, in past years, MCC funding was almost used as a 
substitute for foreign assistance. We certainly heard that from 
State Department officials in their efforts to decrease 
Armenia's foreign assistance. I think those distinctions have 
to be made.
    We support MCC. We support their criteria. We support the 
application of their criteria. We do not like it when Armenia 
has democracy problems.
    At the same time, within the last year, we have seen a new 
development in Armenia, which I noted in my testimony as well. 
Armenia has a human rights ombudsman who has not been bashful 
at all, who has had access to the press, who has actually shown 
up at different places and spoken out for human rights, for 
making sure that Armenia does what it is supposed to do.
    I do not think, among friends, there should be any 
bashfulness at all about saying we are concerned. We do it 
internally. We welcome you to do it as well. We note, in the 
testimony, that Armenians watch and expect international 
monitoring, U.S. monitoring. It is always welcome. It should be 
a transparent society; there is no question in our minds.
    Mr. Jackson. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Chairman.
    Maybe your testimony has it, but I was trying to look for 
the information on the blockade by Azerbaijan. Is it an energy 
blockade, or is it beyond?
    Mr. Krikorian. It is a rail blockade. It is a road 
blockade. It is also an energy blockade. It was particularly 
devastating right after the earthquake in 1988, before 
independence. Eighty-five percent of supplies to Armenia came 
through the Soviet railroad that went through Azerbaijan. Those 
were all cut off.
    Obviously, the conflicts in Georgia have cut off and often 
increased the prices. Georgia now has a monopoly position. If 
you speak to some of the Members of Congress who had visited 
Armenia in those days, they will tell you just how cold and 
difficult it was. I, myself, got frostbite in those days, as 
there was not heat, and there was not light. It was difficult.
    Armenia and Nagorno Karabakh both have offered confidence- 
building measures, a willingness to participate in Track 2 
efforts, limited border openings, things of that sort. They 
have all been rejected.
    Right now, the country has been squeezed for a long time. 
It continues to be squeezed, and I think that the United 
States' assistance in those circumstances has really had an 
impact not just in Armenia but also, symbolically, around the 
world, and that is why it is so important, and I am so happy to 
be here to ask for your assistance again.
    Mr. Jackson. Thank you, Mr. Krikorian.
    Mr. Krikorian. Thank you. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                        Wednesday, March 25, 2009. 

                                 PATH 


                                WITNESS 

ERIC WALKER, VICE PRESIDENT, CORPORATE SERVICES
    Mr. Jackson. Mr. Eric Walker, PATH, Vice President of 
Corporate Services. Welcome to the Subcommittee, Mr. Walker.
    Mr. Walker. Good morning, Vice Chair and the Committee. 
Thanks for allowing us to be here this morning.
    I work for PATH, which is a Seattle-based, international 
nonprofit that seeks to introduce global health technologies in 
developing countries.
    What we do that is different is that we do not just invent 
them ourselves; we find other technologies that are 
appropriate, and we deliver them in partnership with the 
private sector and with the U.S. Government.
    Now, specifically, what we are doing here today is to ask 
that, in this time of competing demands for the budget, that a 
specific element of how USAID works be protected, and that is 
that USAID's work in research and development for global health 
technologies be allowed to continue. Of course, it would be 
great if it was expanded, but I want to go through a couple of 
examples of why keeping R&D in the USAID portfolio is critical.
    The broad, ongoing, and successful struggle to improve 
global health relies on the availability of health 
interventions and technologies designed to prevent, diagnose, 
and treat disease. Although some effective interventions 
already exist--I note the polio eradication we heard about 
earlier--many more will be needed if existing global health 
gains are to be maintained and expanded.
    For three decades, USAID has supported the development and 
introduction of affordable health technologies appropriate for 
developing countries. Given its local expertise and 
understanding of how new technologies can best respond to the 
needs of developing country populations, USAID is extremely 
well positioned to conduct the research necessary to ensure 
that the best available tools are ultimately used effectively 
on the ground.
    While agencies that perform basic science research, such as 
NIH and CDC, play a critical role in product development, this 
is only one component of a much broader process. USAID is often 
the federal agency best suited to support the efforts needed to 
ensure that basic research breakthroughs are translated into 
concrete health gains in developing countries.
    One example of this, of USAID's contribution, is a 
partnership between PATH and USAID in a program called 
``HealthTech,'' which is specifically dedicated to developing 
and introducing new technologies.
    One of the products is called ``Uniject.'' It is an auto-
disabled, prefilled syringe that addresses a specific problem 
of low-skilled health workers not necessarily being able to 
load a syringe appropriately and the chronic problem of reuse 
of dirty needles.
    USAID is currently working with us to prepare the Uniject 
device, which is being made commercially, by the way, by Becht 
& Dickinson, a U.S. company, for use with vaccines to 
administer oxytocin to reduce deaths from post-partum 
hemorrhaging, gentamicin to treat neo-natal infection, and an 
injectable contraceptive to help mothers control family size 
and birth spacing.
    Another technology example is an effort to improve women-
initiated contraceptives. In too many cases, gender inequality 
means that women in the developing world are wholly dependent 
on the cooperation of their partners to protect themselves from 
disease and unintended pregnancy.
    USAID has responded to this need by partnering with PATH 
and other groups to develop women-initiated contraceptives that 
are effective and appropriate for developing countries.
    Two products that PATH and USAID have worked on are a 
female condom, as well as moving forward on the research for 
microbicides.
    The third example is working together to advance the 
malaria vaccine. You may know that the Bill and Melinda Gates 
Foundation has set its sights on developing a vaccine within 
about 15 years. PATH is privileged to be one of the key 
implementers of that research, but we are also partnering with 
USAID to accelerate that part of it as well.
    USAID has funded pieces that develop methods for 
cultivating the malaria parasite in the laboratory at specific 
phases of its life cycle, allowing more effective research on 
interventions targeting the parasite during particular stages 
of its development.
    The agency has also participated in the discovery of 
several molecules with potential for use in the development of 
vaccines, as well as the performance of human tests of 
candidate vaccines.
    You may have read in the press, several months ago, that 
one of the lead candidates for this vaccine, developed by 
GlaxoSmithKline, made it through Phase 2 trials with an 
efficacy rate that was higher than ever had been seen before. 
We are not there yet, but a Phase 2 trial with these efficacy 
rates is an important milestone in its development.
    So what is important for us is USAID's ability to partner 
with organizations like PATH to translate basic research into 
practical solutions; something we think USAID is very well 
suited to do. If it were to go back to NIH or CDC, while they 
are fantastic at basic research, we think they lack the on-the-
ground presence and perspective to take it to the end of the 
day, or sometimes we say, ``to carry it the last mile.''
    Thank you very much for giving me the opportunity to share 
these thoughts with you, and I am certainly available for any 
questions.
    Ms. Lowey. [presiding]. Well, thank you for your testimony 
today.
    Mr. Walker. Thank you, Chairwoman. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 25, 2009.

                     UNION OF CONCERNED SCIENTISTS


                                WITNESS

DOUG BOUCHER, Ph.D., DIRECTOR, TROPICAL FOREST CLIMATE INITIATIVE
    Ms. Lowey. Our next witness is Dr. Doug Boucher of the 
Union of Concerned Scientists.
    Dr. Boucher. Good morning, Chairwoman Lowey, Congressman 
Rehberg. My name is Doug Boucher. I am a forest ecologist, and 
I direct the Tropical Forest and Climate Initiative at the 
Union of Concerned Scientists. I appreciate the opportunity to 
testify before the Subcommittee today about appropriations to 
help end tropical deforestation.
    I would like to make four points today:
    First, tropical deforestation and forest degradation has a 
very significant effect on global warming.
    Second, reducing emissions from deforestation in developing 
countries is a very cost-effective way of reducing global 
warming.
    Third, this Committee and the U.S. Government can help fund 
the global efforts to stop tropical deforestation.
    Fourth, there are great benefits to the U.S. in playing a 
leadership role, bilaterally and multilaterally, in reducing 
such emissions.
    Forests in the tropics are being rapidly cleared for 
agriculture or pasture, destructively logged, and degraded by 
human-set fires at a rate of one acre every second. This 
tropical deforestation causes carbon dioxide emissions that are 
responsible for about 20 percent of total global warming 
pollution every year. That is more than the emissions from 
every car, truck, plane, ship, and train on Earth, the entire 
transportation sector.
    So, clearly, addressing tropical deforestation is an 
important part of dealing with climate change, and, indeed, in 
2005, Papua New Guinea and Costa Rica led developing countries 
in proposing a policy to reduce emissions from deforestation at 
the international climate meeting in Montreal.
    The international climate treaty being negotiated is likely 
to, and should, include policies to reduce emissions from 
deforestation, and the administration is supporting such 
policies, both in the treaty negotiations and in domestic 
legislation.
    Countries can greatly reduce tropical deforestation and the 
emissions that it causes at a cost considerably lower than the 
current cost for reducing pollution from industries, vehicles, 
and power plants. Conservative calculations, both our own at 
UCS and those of the European Commission and the British 
government, estimate that 20 percent of tropical deforestation 
emissions can be stopped at a cost of $5 billion; for $20 
billion, half of such emissions can be stopped. That is 
considerably less expensive than the cost of making comparable 
reductions in fossil-fuel-related sectors.
    But in order to achieve this potential, we need to build up 
the capacity of tropical countries to measure their emissions, 
to determine the specific causes of deforestation in their 
countries, to make national plans to reduce emissions, based on 
those causes, and to gather the scientific evidence as they 
achieve those reductions so that they can document them and be 
compensated for them after they are achieved.
    The first phase of this, the capacity building, has a much 
smaller cost than the later phase--we are talking about 
hundreds of millions rather than many billions--but it has to 
be started quickly so that we can achieve major reductions in 
emissions in the decade of the 2010's.
    Official development assistance funding represents the 
earliest and fastest way for tropical countries to build up the 
capacity they need to protect their forests, measure, certify 
their emissions reductions, and do the necessary training and 
technology development.
    Just for comparison, other countries are already 
contributing to this. The government of Norway, for example, a 
country of just 10 million people, is committed to $500 million 
a year, for each year, for the next five years towards this 
goal.
    UCS, accordingly, urges the Subcommittee to appropriate at 
least $200 million in Fiscal Year 2010 development assistance 
to increase tropical countries' capacity to reduce emissions 
from tropical deforestation, as well as to maintain or increase 
reforestation.
    This appropriation would fund such activities as developing 
the capacity to measure their reductions, determining emissions 
reference levels, developing strong forest governance, 
modifying national development plans, creating in-country 
capacity to use satellite data, creating the necessary forest 
inventory plots, and learning how to assemble all of this 
information into scientifically rigorous, dependable measures 
in the form that will be necessary to receive private and 
public sector funding for the reductions that have been made on 
a ``pay-for-performance'' basis; that is, reductions have to be 
made first; compensation comes after.
    Such a tropical deforestation and climate program would be 
integrated with USAID's other environment and climate-related 
activities, which include promoting the international 
development of clean technology and climate-adaptation 
initiatives. These three elements--forests, green technology, 
and adaptation--are also very important parts of the 
international negotiations currently going on in the U.N. 
process.
    As the world community anxiously awaits the U.S. Government 
to retake the leadership role in treaty negotiations, such 
bilateral funding will be the first and most concrete 
indication of the U.S.'s reengagement.
    Madam Chairwoman and Members of the Committee, we are 
running out of time. Scientists have recently concluded that 
the impacts of global warming are becoming even more severe and 
more quickly than had been projected.
    So, as part of a more robust, climate-change program in the 
USAID, we urge you to appropriate $200 million in additional 
funds to help reverse tropical deforestation and thus reduce 
global warming pollution.
    Thank you very much, and I would be happy to answer your 
questions.
    Ms. Lowey. First of all, as you know, we are very pleased 
that the president's budget includes a significant focus on 
climate change. Whenever I hear a comparison of reducing fossil 
fuels and looking at what deforestation does comparably, I 
continue to be amazed. I almost think you should put great, big 
signs all over to get support for this initiative.
    I know that there is a great deal of enthusiasm and 
confidence that focusing on deforestation in the president's 
overall agenda is going to be key, and I hope that we will be 
able to provide sufficient funding to be able to accomplish 
your goals. I really want to thank you for your important work.
    Mr. Boucher. Thank you very much, Chairwoman Lowey. I 
really appreciate the support, and, as you said, this is not 
only a very important part of the global warming problem, but 
it is also one of the areas where we can be most cost effective 
in reducing greenhouse gas emission and, therefore, in solving 
the problem.
    Ms. Lowey. Thank you.
    Let me thank you and all of those who are still here who 
presented their testimony. This hearing is adjourned, and we 
will continue our work. Thank you. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 26, 2009.

   PUBLIC WITNESSES: THE PRESIDENT'S FISCAL YEAR 2010 INTERNATIONAL 
                             AFFAIRS BUDGET

    Ms. Lowey. Good morning. The subcommittee on State, Foreign 
Operations, and Related Programs will come to order. I want to 
welcome each of our distinguished witnesses to the 
subcommittee.
    This is a hearing on the President's Fiscal Year 2010 
International Affairs Budget. As you know, the President 
submitted a budget request of $51.7 billion for programs under 
the jurisdiction of this subcommittee, and I do commend 
President Obama for submitting an honest and transparent budget 
that does not rely on supplemental funding to hide the true 
costs of our defense, diplomatic, and development accounts. I 
would also like to say that the decision of the Budget 
Committee to reduce that was not a happy result, but the 
process is not over until it is over.
    And I would note for the record that while it is a robust 
budget for international affairs, when you factor in the nearly 
$11 billion emergency funding that was appropriated or 
requested in fiscal year 2009, the fiscal year 2010 request is 
only a seven percent increase over 2009, and while seven 
percent is still a lot of money, we face great challenges.
    It is therefore extremely important to hear from our 
witnesses today about funding priorities and I would like to 
thank all of you for participating in today's hearing.
    Our public witnesses, along with all those submitting 
written testimony for the record, represent a broad cross-
section of interests and collectively provide a critical 
commentary for this subcommittee to consider as we move forward 
with crafting a fiscal year 2010 appropriations bill.
    Unfortunately, our time constraints require us to limit the 
number of witnesses presenting oral testimony this morning. We 
are, however, very interested in reviewing all outside 
perspectives and will include in the hearing record the written 
testimony of each individual and organization that submits 
testimony to the subcommittee regarding the fiscal year 2010 
budget.
    I look forward to hearing the testimony this morning, and 
we would be very grateful if each witness would limit their 
oral remarks to five minutes. We have a distinguished group of 
witnesses this morning and I want to provide each of you with 
sufficient time to make your statement. Your full written 
statement will be made part of the record.
    We will begin, with Cynthia McCaffrey, United States Fund 
for UNICEF, Senior Vice President, Program and Strategic 
Partnerships. Please proceed.
                              ----------                              

                                          Thursday, March 26, 2009.

                     UNITED STATES FUND FOR UNICEF

                                WITNESS

CYNTHIA McCAFFREY, SENIOR VICE PRESIDENT, PROGRAM AND STRATEGIC 
    PARTNERSHIPS
    Ms. McCaffrey. Thank you, Madame Chairwoman and members of 
the subcommittee. On behalf of American supporters for the US 
Fund for UNICEF, I appreciate this opportunity to testify 
regarding the United Nations Children's Fund, and I 
respectfully ask the subcommittee to provide at least $135 
million as the U.S. government's voluntary contribution to 
UNICEF for fiscal year 2010.
    Most importantly, I want to thank you for your ongoing 
bipartisan support for UNICEF and the world's children, and for 
providing $130 million to UNICEF in the current fiscal year.
    Our organization, the US Fund for UNICEF represents 
concerned Americans who want us to save children from dying 
preventable deaths. I just completed my first year at the US 
Fund for UNICEF. I have had the opportunity over the years to 
work for several international organizations, including UNICEF 
itself, so I have traveled quite a bit and seen UNICEF programs 
from different angles.
    One trip in particular struck me and stuck with me when I 
met a new mother with her young baby son, Samani Buno, and I 
asked did it have any significant meaning, and she said, ``it 
means be well.'' ``My other two babies died,'' she continued, 
``but this one will be well, will be healthy, and grow to be a 
strong man.'' What struck me was that it was not a sad moment; 
it was a determined, decisive moment. And that is UNICEF. We 
are decisive and determined.
    Every year 9.2 million children die from causes we can 
prevent. That is 25,000 children dying every day before their 
fifth birthday. We believe we must and we know we can make that 
number zero. What is UNICEF doing to do that? With support and 
money that this committee has provided we have immunization 
efforts underway. In the last year, UNICEF has contributed to 
prevent two million deaths of young children through 
immunization programs. In 2007 UNICEF provided 3.2 million 
vaccine doses worth $617 million that reached 55 percent of the 
world's children.
    Nutrition is also very important. Of those 9.2 million 
children who die every year, almost 40 percent are 
malnourished. I know you may be familiar with our oral 
rehydration salts, which are lifesaving, but I want to make 
sure you also know about our micronutrient powders. With 
pennies, we can put this on a child's food; it is tasteless and 
they can get the vitamins and micronutrients they need for up 
to a week. Or ready-to-use therapeutic food, which is a high 
protein mixture that is easy to swallow and you can literally 
see an acutely malnourished child come back to life as he 
swallows it; for less than a dollar.
    UNICEF is on the ground in over 150 countries and 
territories helping children to survive childhood and thrive 
through adolescence. UNICEF, in addition to supporting health 
and nutrition, provides clean water and sanitation, quality 
basic education for boys and girls, and protects children from 
violence, exploitation, and HIV and Aids.
    I have brought some pictures to further illustrate what 
UNICEF does on the ground.
    This is in Azerbaijan, a temporary kindergarten unit which 
is exemplary of what UNICEF does. In an internally displaced 
camp or in an emergency it provides a safe place for children 
to go and to learn. I was in Laos recently where UNICEF 
supports a mobile health clinic providing health and basic 
nutrition screening, but with our partners we have thrown on 
kindergarten and basic education. I was struck by the four, 
five, and six year old children who come running when the 
mobile clinic rolls into town, into the village, where there is 
not a school nearby, to begin learning how to read and write, 
and I was also struck how the 14, 15, and 16 year old boys and 
girls who grew up in the same village far from a school come 
and also try to learn how to read and write.
    This is in Pakistan after the earthquake, and illustrates 
UNICEF providing with partners clean water points and we 
provide water purification as well. As you know, dirty water is 
one of the biggest killers of children. Up to 4,200 children 
die every day from diseases caused by dirty water.
    March 22, Sunday, the US Fund for UNICEF launched 
celebrating Clean Water Week by walking with over 2,000 
children and their families in New York City and Chicago to 
show how important clean water is for everyone, everywhere.
    This in Somalia after the tsunami, UNICEF providing 
shelter, basic health and nutrition, as well as education in an 
emergency.
    More recently in Haiti when the island was pummelled with 
hurricanes, UNICEF did the same thing. We were among the first 
responders to make sure there was clean water and sanitation, 
basic education where children could be in a safe place and 
learn, and have the health and nutrition that they required.
    Along with the $135 million that we have requested for 
UNICEF, we would like to support increased funding for Child 
and Maternal Health subaccount, the Iodine Deficiency, Polio 
Eradication, and the GAVI request. This committee has been 
steadfast champions for children and we are here to thank you 
for that leadership and to encourage you to keep children an 
Appropriations priority.
    Thank you.
    Ms. Lowey. Thank you for your very important work and we 
look forward to continuing to work together as partners.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 26, 2009.

                          WORLD WILDLIFE FUND


                                WITNESS

THOMAS C. DILLON, SENIOR VICE PRESIDENT
    Mr. Dillon. Thank you for the opportunity to provide 
testimony today. World Wildlife Fund is the largest private 
conservation organization working internationally to protect 
wildlife, wildlife habitat, and natural resources that all 
humans need to survive. We have been around for 45 years and we 
have worked in more than 100 countries. We are supported by 1.2 
million numbers in the United States, and 5 million members 
worldwide.
    We believe we have a unique way of working that combines 
our global reach with the foundation and science to meet the 
needs of people and nature.
    The nature of many assets are impossible to live without 
and yet are facing dire challenges. Two billion people, 75 
percent of whom are rural poor, are food insecure. Fish stocks 
are collapsing worldwide, putting at risk one billion people 
who depend on fish for protein. A good example is from where I 
used to live in Laos and Vietnam along the Mekong River, the 
lower part of the river supplies 80 percent of the protein for 
70 million people there, and that is at risk from climate 
change, from infrastructures such as dams for growing energy, 
and from poor land use planning, and deforestation.
    At the same time fresh water systems and species are in 
peril while inadequate water supply are leading to 50 percent 
of the world's nutrition, 10 percent of global health problems 
and two million deaths per year. It is estimated that by 2030 
half the world's population could be living in water-stressed 
countries. Wetlands, river basins and groundwater aquifers are 
the key to ensuring clean, fresh water for all are rapidly 
being depleted and polluted. So I think the link between nature 
and human interests cannot be overstated.
    A few other example would be, for instance, the island of 
Sumatra in Indonesia has been undergoing the most rapid 
deforestation in the world after the fall of the Suharto in the 
fall of 1998, and that is leading to widespread problems for 
local people who are dependent on the forest, but also at a 
regional level is leading to very serious haze problems as 
deforestation causes forest fires, which is leading annually to 
billions of dollars in health care costs in Singapore and Kuala 
Lumpur, as well as contributing greatly to the concentration of 
greenhouse gases. Just to the island of Sumatra alone, the 
deforestation that are occurring annually exceeds the reduction 
in greenhouses gases from the Kyoto Protocol, and that is on an 
annual basis.
    There is a lot of projects that the U.S. Government is 
funding that are improving the situations between local 
livelihoods for rural people, and nature that they are 
dependent upon. One great example would be in Namibia, the life 
program which has been going on for 16 years supported by 
USAID, and there they are now 50 community conservancies 
representing one-seventh of the country's population, and these 
are the poorest people in Namibia who now have control over 
their own resources. They have brought back their wildlife. 
They have brought back water resources, and they have greatly 
improved both health and their local environment, which has 
brought in significant economic resources.
    Interestingly, almost none of these people have any formal 
education, and now they are actually managing very 
sophisticated operations.
    One-third of them are women. When I was there recently 
talking to a committee that runs one of these very large 
conservancies--they are on average about a half a million 
acres--I was talking to women who had only first and second 
grade education, and has been goat herders their whole lives, 
and now were managing these operations that are bringing in the 
financial resources for their own communities as well as 
improving the environment.
    There are a lot of other wonderful examples of U.S. 
Government-funded projects. I do not have a lot of time, but in 
Nepal, for example, there are simple technologies such as bio-
gas that allow for the reduction of the use of firewood, and 
reduction in time that women spend collecting firewood, and 
that brings back the forests in southern Nepal.
    So in conclusion, I would say that we have worked very 
closely with USAID and others in the State Department on 
environmental projects and programs throughout the world. We 
appreciate the funding that this subcommittee has provided in 
fiscal year 2009, and we hope that in fiscal year 2010 you will 
consider $275 million for USAID's bio diversity conservation 
program, 80 million for the global environment facility, plus 
85 million for arrears which is half of the current arrears the 
U.S. Government has, as well as $20 million for the Shaska 
Forest Conservation Act, which is the same amount as in fiscal 
year 2009, and $12 million for the international organizations 
and programs at the State Department who have been very helpful 
in a lot of the large-scale conservation programs throughout 
the world; maybe most notably the Coral Triangle which 
President Obama mentioned in his first few days in office, 
which is working on marine fisheries which not only is the most 
important place for coral reefs in the world, it also is the 
area that spawns many of the fish that people in Southeast Asia 
are relying upon, and it is a large-scale project that both AID 
and State Department have helped foster.
    Thank you for allowing me to speak today, and I obviously 
have a lot more in my written testimony, and I hope that it is 
helpful to you.
    Ms. Lowey. It certainly is helpful and I thank you very 
much. In particular, I think the information regarding the 
impact of deforestation, to use the example of Indonesia, 
should really be sent out loud and clear on a great big PR 
campaign because I do not know that the majority of the people 
in this country are really aware of it, and certainly our 
resources can be very, very helpful in reversing it. So I thank 
you for your focus on that, and the other information you 
provided.
    Ms. Granger.
    Ms. Granger. Thank you for your appearance and thank you 
for your written statement. I will study it carefully. You have 
great information to give us. Thank you.
    Mr. Dillon. Thank you.
    Ms. Lowey. Thank you very much.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 26, 2009.

                NATIONAL COORDINATED EFFORT OF HELLENES


                                WITNESS

ANDREW E. MANATOS, PRESIDENT
    Ms. Lowey. Andrew E. Manatos, National Coordinated Effort 
of Hellenes. Thank you very much. Welcome. Please proceed.
    Mr. Manatos. Thank you, Madam Chairman. Thank you for the 
opportunity to testify before the subcommittee. I will be brief 
and submit my written testimony for the record.
    The first point I would like to bring to the committee's 
attention is ESF funds going to Cyprus. I know the committee 
over the years has tried to help our bureaucrats over there 
make sure that the government of Cyprus that is recognized by 
the United States is fully briefed on where those dollars are 
going. Strangely enough, there are some people in our 
bureaucracy who have taken upon themselves to treat these 
issues differently. As a matter of fact, you will be interested 
to know that in recent days an effort was made, for example, to 
have the leader of this entity on Cyprus that is not recognized 
by the American government meet with the Secretary of State and 
meet with General Jones. This went on a great deal of activity 
within our bureaucracy to do this.
    When it was brought to the attention of Secretary Clinton, 
she, of course, understood the importance of recognizing the 
legitimate government of Cyprus and that was immediately put to 
a stop.
    The Hellenes funding is another program that has taken care 
of 40,000 people, very desperate people in need of health care 
in the former Soviet Union, 40,000 people a year. It is a small 
dollar item for the American budget but has a profound impact 
on that region.
    If I might also just mention a couple of issues that I know 
the members of the subcommittee are interested in in that 
region. One is the former Yugoslav Republic of Macedonia, which 
is to the north of Greece. The issue has really simplified in 
recent months because the United Nations offered to the former 
Yugoslav Republic of Macedonia the name that they have been 
asking for; the name Macedonia. The UN said, of course, we will 
give that name qualified by the part of ancient Macedonia that 
is within the borders of the former Yugoslav Republic of 
Macedonia, so it will be North Macedonia.
    Well, that UN proposal was rejected. The former Yugoslav 
Republic of Macedonia wants a name that not only describes 
their territory but also the north of Greece which you will see 
maps that show northern Greece annexed to this country.
    So the issue is solidified, clarified for a lot of people. 
It is no longer an issue of a name. It is an issue of 
territorial sovereignty.
    Another issue of great concern is the issue of the 
ecumenical patriarch. As you know, the ecumenical patriarch is 
the spiritual leader of the second largest christian church in 
the world. In nearly 2,000 years it has been established in 
what is today Istanbul, Turkey. He plays a phenomenal role. He 
was selected in 2008 Time Magazine as the eleventh most 
important person or influential person among the 100 most 
influential people in the world. He is the individual that 
brought about the first condemnation of 9/11 as an anti-
religious act, a condemnation by Muslim leaders, but as you 
know in recent years 95 percent of his property in Turkey has 
been confiscated. There is an effort to put an end to this 
nearly 2,000 year-old religious institutions by requiring that 
all future patriarchs be Turkish citizens, and that community 
has been so oppressed, it is less than down to 2,000 people, 
mostly old, and it would be extinguished.
    American policy on this is really quite good and that 
Congress has been excellent on urging Turkey to do what is in 
Turkey's best interest, and that is to provide religious 
freedom to ecumenical patriarch.
    The final issue I will mention is the Cyprus issue. A lot 
of people do not realize, because of the neighborhood that 
Cyprus is in, that unlike Greece and Turkey, which had great 
violence for 400 years, unlike Bosnia and that area, on the 
island of Cyprus in their 400-year history together of Turkish 
Cypriots and Greece Cypriots, they got along with only 16 years 
of violence, and those 16 years were motivated by, for example, 
the Brits did the divide and conquer where they created a 
Turkish Cypriot police force and pitted them against the 
Greece. When Turkish Cypriots leave Cyprus to go back to the 
U.K., which was their colonial country, where do they live? 
They got to Greek Cypriot neighborhoods. They live together in 
Great Britain. They are members of the same social clubs. There 
have been 15 million crossings in recent years between the two 
communities; not one incident of violence.
    Yet, as you may know, Turkey has more troops on the little 
island of Cyprus than the U.S. has in Afghanistan, and America 
policy is trying to help that country come together, and even 
the establisher of the Turkish Caucus on the Hill is now 
supporting the removal of Turkish troops from Cyprus. This is 
not a pro-Greek or pro-Turkey. It is in everybody's best 
interest, probably more for Turkey than for anyone else.
    And as the first witness to stop at exactly five minutes, I 
hope we get additional consideration for your request.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lowey. You always have the consideration of this 
subcommittee, and we thank you very much for appearing.
    Ms. Granger? Ms. Lee? Thank you very much.
    GAVI Fund, Dwight L. Bush, Jr., Member, Board of Directors. 
Thank you for being with us today.
                              ----------                              

                                          Thursday, March 26, 2009.

                               GAVI FUND


                                WITNESS

DWIGHT L. BUSH SR., MEMBER, BOARD OF DIRECTORS
    Mr. Bush. Thank you, Madam Chairwoman. It is a privilege 
and honor for me to speak before your committee once again on 
behalf of the GAVI Fund. I have a written statement that I 
would hope would be entered into the record, and rather than 
repeat the points in that statement I would like to highlight 
briefly my recent experiencing witnessing firsthand child 
immunization in Liberia, a trip that I took about six weeks 
ago.
    I saw immunization activities in 10 clinics in three 
different hospitals located in both rural and urban setting. I 
saw firsthand literally hundreds of mothers waiting their turn 
to ensure that their children are protected against preventable 
diseases that kill millions every year: hepatitis B, 
diphtheria, and tetanus. These were hopeful mothers who want 
for their children what we want for ours--the chance to grow 
and thrive without the fear of preventable diseases that could 
stop them from realizing their potential.
    But their struggle to secure this is so much greater than 
ours. However, the resolve of those mothers is so clear. It was 
an incredibly moving experience for me.
    I have visited a number of the developing countries since 
joining the GAVI board more than five years ago, but this 
experience was particularly poignant for Liberia and the United 
States, as you know, have a very special bond. My colleagues 
and I saw firsthand the key role that GAVI support plays in 
expanding access to life-saving vaccines and in strengthening 
health systems in Liberia. But for each challenge that I saw I 
also saw hope.
    I saw the faces of parents who felt for the first time that 
they were assuring the basic insurance that increases the 
chances that their children will live to the age of five, and I 
also witnessed the empowerment that health workers experienced 
as they administered life-saving vaccines.
    During Liberia's long, brutal war, vaccination rates 
dropped to about 32 percent. Today, I am pleased to announce 
with the support of GAVI and other organizations the rate of 
immunization has more than doubled, to over 60 percent. Because 
of the commitment of our government to prioritize public health 
and to support GAVI's partnership, which includes UNICEF, and 
World Health Organizations, among others, as partners, we are 
helping to ensure that children in Liberia have a chance to 
thrive and grow.
    President Ellen Sirleaf Johnson is personally aware of 
GAVI's support, and she met with our delegation there. She 
understands that vaccinations is the backbone of public health 
and that it is important for her to realize her broader 
objectives for stabilizing Liberia.
    Wherever we turned we heard stories from mothers about how 
vaccines or the lack thereof affected them and their families. 
I just want to share one story with you, one individual we 
encountered. Her name is Angie, and she was a nurse who was 
assigned to take us around the country. Angie had three 
children. Two of her children died of pneumonia, unnecessarily 
so before they reached the age of five. And during the course 
of her raising her three children, she was always subject to 
feeling the power and the burden of the brutality of the war 
that went on. So there were instances when she took us to her 
home in the country, and there was a dividing line, and she 
knew that when she lived there she couldn't get past the army 
or the people involved in the government to get her children to 
the hospitals for basic vaccines. She lost two kids. She saved 
one.
    This need not happen, and her story, I think, is indicative 
of the experience that many had in Liberia that GAVI is helping 
to address, to make sure that she can get her children to the 
age of five because we know that children who live to five have 
a great chance of growing to maturity.
    Madam Chair, we can make sure that Angie's story is not 
repeated in Liberia and elsewhere, in Sub-Sahara Africa, in 
South Asia. We can work with government in Liberia and the more 
than 70 other very poor countries to increase access to life-
saving vaccines so that children can grow into healthy and 
productive adults that contribute to the prosperity of their 
countries, but we do continue to need U.S. support.
    Thanks to your leadership and the subcommittee support the 
GAVI alliance has been able to provide vaccines and health 
system support to more than 70 of the world's poorest 
countries. On behalf of the alliance, we respectfully request 
that this subcommittee recommend $80 million for the GAVI 
alliance in fiscal year 2010 budget.
    Thank you and I am prepared to answer any questions you may 
have.
    Ms. Lowey. Thank you for your very important work, and I 
really do appreciate your giving us some examples of President 
Ellen Johnson's relief work in Liberia. This committee traveled 
there and we are very well aware of the enormous challenges 
that she faces. She has a big cheerleading squad here.
    Mr. Bush. Yes.
    Ms. Lowey. And I am glad that you are working so actively 
with her. Thank you.
    Ms. Granger. Thank you.
    Mr. Bush. Thank you very much.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 26, 2009.

                       BASIC EDUCATION COALITION


                                WITNESS

STEPHEN F. MOSELEY, CHAIRMAN
    Mr. Moseley. Madam Chairwoman, I am just delighted to have 
the honor to be here, and I want to thank you for the 
extraordinary leadership you are providing to help children's 
education around the world and the access and improving the 
quality of those children's lives through education around the 
world, and also to thank Ms. Granger and Ms. Lee also for in 
your role prior to becoming a Ranking Member, supporting the 
EFA bill, which is now a bipartisan effort which is hope is 
moving through toward ultimate legislation and funding.
    Extraordinary progress has been made, Ms. Chairwoman, not 
only for your leadership first as a Rank Member and the Chair, 
to leading us back into a role of leadership on children's 
basic education, and especially for girls' opportunity for 
basic education around the world. The U.S. has reached one of 
the lowest points in history of support for education just 
about the time the world's ministers of education came together 
in the year 2000 in Dakar. Since then that level of funding, 
which was only $100 million, barely serving kids at that point 
has risen to approximately $700 million in the last year, 
joined with other nations, which is so important, the 
collaborative cooperation now led by the U.S. is the largest 
single donor has been so important in moving us forward and 
meeting the goals that have been set forth by the EFA movement.
    We are at a particular point in time though where we must 
wrestle with the things that we have not accomplished, but I 
want to start by noting how much has been accomplished. In the 
years since 2000, 20, almost 30 percent in many cases, increase 
in access and completion of basic education has resulted. That 
is a dramatic increase in a period of 10 years. Depending on 
the area and depending on the country, 20 to 40 percent 
increases in participation by girls has occurred as a result of 
this funding, as well as a result of the support, and as a 
result of the leadership, though, by the countries themselves, 
but the donor support has been absolutely critical in being 
able to leverage their support to address these critical needs.
    The successes have varied by region, but U.S. support has 
particularly been effective in bringing to scale at a national 
level work on countries as diverse as El Salvador, Guatemala, 
Nicaragua in Central American, Guiana, Uganda, Namibia, 
Ethiopia have all made dramatic progress in terms of access for 
girls, opportunities again to improve quality of education. 
Liberia is a wonderful example just cited as a massive change 
in where not only a new education system had to be rebuilt but 
also to serve the children in crisis at the same time. The same 
thing is occurring in parts of Asia--I have a note--beginning 
to move toward more national skill program in Nepal, Indonesia, 
Pakistan, Afghanistan, very challenging but major progress 
being made as a result of the U.S. involvement and in 
cooperation with others.
    Our members from BEC, who I am representing today, the 
Basic Education Coalition, are the 18 organizations that work 
at the grass roots level. They work also with the National 
Ministries of Education. They work in cooperation with both 
multilateral donors, in particularly though with AID which is 
doing an extraordinary job, I want to note in its work at the 
ground level. It is the only donor organization working on a 
continuous basis at the ground level and being able to work at 
scale but doing so on a country-led leadership and initiatives, 
and at that country-led process working closely in cooperation 
with the other donors so that our coordinated efforts together 
make that difference.
    What is wonderful about education is that there is as large 
investment by countries. What is further wonderful though is 
that the amount of funding, which may appear small relative to 
the need, is in fact able to leverage that other funding to 
make qualitative changes, significant skill changes. The 
funding that is provided through USAID has been very important 
in changing the teaching approaches, materials, the relevant 
content, applying technologies for more efficient systems, 
training of leaders, making sure that the management 
information systems both contribute policy change within the 
country but also, frankly, to make sure that we know where the 
funding is going to ensure that it continues to be accountable 
for results, which have been led in many respects by USAID's 
work.
    Many of our organizations work in concert with AID in 
making this happen. At the same time we feel that over the past 
several years the attention to the leadership in aid for 
education within AID has not been fully recognized. It 
continues to be low down in the bureaucracy despite the very 
high priority your committee has helped the agency to achieve 
in terms of on-the-ground funding.
    We are recommending this year in the 2010 budget that we 
find room and opportunity to begin, in effect, to make that 
downpayment, a significant downpayment on the EFA legislation 
and are recommending $1 billion support, to make sure that we 
go forward at this halfway point in the EFA movement toward our 
goals for 2015. We are living in a time of revolutionary change 
in education. We can achieve--maybe not in my lifetime--but 
soon, I believe in my children's lifetime--we will see the 
possibilities that this support will bring education to every 
child in the world. That will be revolutionary and is possible 
and doable.
    I just finally want to note as the buzzer is ringing how 
important it is that we also support bringing back the skill 
level of the valuable personnel at the field level for USAID, 
education officers, to ensure that sound programming, sound 
planning, working with country-led programs by the countries 
themselves bring about this change and utilize these funds well 
and for the long term.
    We also want to make sure that the U.S. leadership role 
does work closely in cooperation with UNESCO, with UNICEF, with 
UNIFEM, with other organizations. It is very important that our 
leadership be one in unison with the others, and we look 
forward to the committee's consideration of not only this level 
of funding, but how best to carry out that funding, working 
with our agency and with the kind of members that we represent.
    So thank you very much for the opportunity to be here.
    Ms. Lowey. Thank you very much.
    Mr. Moseley. Thank you very much.
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 26, 2009.

                             CARNEGIE HALL


                                WITNESS

SARAH JOHNSON, DIRECTOR, WEILL MUSIC INSTITUTE
    Ms. Johnson. Thank you. Good morning.
    Chairwoman Lowey, Ranking Member Granger, Members of the 
Subcommittee, thank you for the opportunity to present 
testimony today on behalf of Carnegie Hall. My name is Sarah 
Johnson and I am the Director of the Weill Music Institute 
which is Carnegie's education and community program's arm. I am 
here in place of our trustee and artist advocate, Jessie 
Norman, who sends her best personal wishes to you, and regrets 
not being able to be here today. She sent us.
    Carnegie Hall has worked closely during the past eight 
years with the Department of State, Office of Education and 
Cultural Affairs. We believe that education and cultural 
exchange is a critical component of international diplomacy and 
we encourage the committee to fund innovative cultural exchange 
programs at the highest possible level in fiscal year 2010.
    Funding for cultural diplomacy has more than tripled since 
2001, and in fiscal year 2008 Omnibus Appropriations Bill, $10 
million was made available for grants to entities for one-time 
cultural exchange activities. This funding was a breakthrough 
for organizations like Carnegie Hall.
    As American society grows increasingly diverse and as our 
global community continues to shrink, there is a corresponding 
need for bridging cultural divides and placing different 
cultures and dialogue with one another. The arts can play a 
central role in this work by virtue of their unique ability to 
create communal experiences among diverse peoples, to support 
individual and collective expression, to foster greater 
cultural awareness, and to stimulate cross-cultural 
understanding and communication.
    Secretary of State Hillary Clinton spoke recently about 
bringing twenty-first century tools and solutions to meet our 
problems and seize our opportunities. We consider ourselves 
fortunate to have developed and partnership with the Department 
of State cultural exchange as one of these powerful twenty-
first century tools.
    Building on our joint successes and a desire for richer, 
more sustained relationships with our international partners, 
we have developed Carnegie Hall cultural exchange, a highly 
innovative and far-reaching model that creates long-term links 
among U.S. students, high school students and teachers, and 
their peers abroad. This program currently engages students, 
educators and artists in Turkey, India, and starting this fall 
in Mexico. In each of these countries there is enormous 
opportunity to improve understanding and perceptions of the 
United States through non-political activity.
    Carnegie Hall cultural exchange provides specific targeted 
educational resources for students, teachers and artists, 
including curricula, professional development for teachers, and 
online communities that supports dialogue and exchange, 
multiple simulcast for performances connecting students in New 
York City with the focused countries, and in-person exchange of 
teachers, artists and art administrators.
    To give you a real-time example of the program's power--
when the Mumbai terrorist incident occurred in December of 
2008, we had already begun the online dialogue between New York 
students and their peers in New Delhi. We found several things 
interesting.
    First, the students in New York who may not have read or 
heard about the attacks had a striking reason to discuss world 
affairs. Second, Carnegie Hall's online community gave the 
Indian students an important voice in shaping U.S. perception 
of the attacks, and gave the U.S. peers a perspective that was 
distinct from the media coverage of the event.
    A teacher who participated in the program with Turkey 
recently volunteered a strong endorsement of the cultural 
exchange program. She said, ``This program is the best 
embodiment for hope, not just to have our students be diverse, 
but also for them to understand diversity. It is the best 
training ground I have seen for youth ambassadors to learn that 
they can be citizens of the world.''
    We have learned that cultural diplomacy is complex and 
multi-faceted and each year our programs evolve as we learn 
more through doing this work with people in different 
countries. These activities challenge our assumptions and those 
of our partners about what it means to be a citizen of the 
world, and about the importance of both understanding our own 
culture and of learning about the rich cultures of other 
nations.
    This program has had a marked effect on thousands of high 
school students and teachers both here and in the United 
States, and abroad. We have seen a broadening of students' 
world views. We have watched educators' teaching practices 
evolve, and we have learned that teaching practices that we 
taken for granted in the United States have been hailed as 
innovations by teachers participating in foreign countries. 
This is a great example of a lasting positive impact for the 
foreign participants of the program.
    Meaningful international work for nonprofit organizations, 
even large institutions like Carnegie Hall, is not sustainable 
without a true partnership with the Department of State. The 
U.S. embassies have played a valuable role in developing the 
Carnegie Hall program, and in turn the embassy staff members 
have been very excited about the work and have welcomed its 
impacts in their communities.
    A federal investment, even in relatively small increments, 
allows private organizations to leverage additional private 
dollars. We urge funding for the continuation of these grant 
programs and educational and cultural exchange at the State 
Department to help our organizations create innovative, robust 
and most importantly, sustainable programs. We commend the 
State Department's work as well as the committee's task ahead 
and thank you once again for your consideration of the 
importance of cultural diplomacy in U.S. foreign affairs.
    Ms. Lowey. Will there be a partnership with Mexico?
    Ms. Johnson. Absolutely yes. We are beginning the cultural 
exchange work there, so starting next year we will have high 
school students, primarily in Mexico City, partnering with New 
York City students. Beyond that, however, there are a number of 
other collaborations that are possible forming a partnership 
with CNART, which is the national center for the arts there, 
and they are interested not only in this program but in taking 
other programs that we have developed, adapting them, not only 
translated them into Spanish, but adapting them for appropriate 
use in Mexico, and then using their distance learning system 
which has national reach across Mexico to share this work more 
broadly. We are very excited about the potential there, and 
just beginning the conversations, but it is extremely 
interesting and feels very timely, certainly.
    Ms. Lowey. Thank you.
    Ms. Johnson. Thank you. 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 26, 2009.

                  AMERICAN FOREIGN SERVICE ASSOCIATION


                                WITNESS

JOHN K. NALAND, PRESIDENT
    Mr. Naland. Madam Chairwoman, Ms. Granger, thank you very 
much for having me here to speak today. I am the elected 
representative of the Career Foreign Service at State, USAID, 
Foreign Commercial Service, Foreign Agricultural Service. I am 
also an active duty career foreign service officer. I guess I 
am one of the bureaucrats that your third speaker referred to.
    Well, this bureaucrat's most recent overseas assignment as 
consul general in Matamoras, Mexico, which is the home of the 
golf cartel, and my next assignment in two months is as a 
provincial reconstruction team leader in Basra, Iraq. So that 
is what your bureaucrats are doing overseas for you.
    Many of the speakers today are talking about the programs 
that your subcommittee funds, and those are very important, but 
I am here to talk about the platform from which those programs 
are implemented. U.S. embassies and consulates and provincial 
reconstruction teams are very much power and projection 
platforms just like an aircraft carrier. But as Secretary of 
Defense Gates has pointed out, every member of the U.S. Foreign 
Service generalist corps could easily fit on one aircraft 
carrier. So we are a small core of people. We have huge 
staffing gaps both at State and, as you well know, at U.S. 
Agency for International Development, which is a shadow of what 
it was 10 or 20 years ago.
    The American Academy of Diplomacy did a very thorough study 
that was published last October. Ambassador Tom Pickering has 
been testifying about it, and it detailed the staffing gaps at 
State and USAID. This subcommittee and the Congress in both the 
fiscal year 2008 supplemental and the fiscal year omnibus had 
started to rebuild staffing at State in USAID, and we are 
extremely grateful for that, but much more needs to be done.
    President Obama's budget that we are here talking about, 
budget requests, calls for a multi-year effort to significantly 
increase the size of the foreign service, and we at the 
American Foreign Service Association wholeheartedly endorse 
that. The new positions that you and your colleagues have 
funded in 2008 and 2009 will just barely fill the gaps that 
already exist at our embassies and consulates around the world. 
We also need more positions--the American Academy of Diplomacy 
study details this--more positions for training. The GO has for 
a long time issued reports that show that language proficiency 
in the foreign service has been slipping. People are in jobs 
that they have not been trained for, and that is because there 
has not been funding for training positions, so that someone 
could take two years to learn Arabic.
    I mean, I am going to be a provincial reconstruction team 
leader and I do not speak Arabic, and that is because--I mean, 
I have many fine qualities, but Arabic is not one of them, and 
we just do not have enough people at State and USAID to send 
out everyone to Iraq speaks Arabic, and people in Afghanistan 
who speak Dari. So we need these positions that President Obama 
has called for. I have not seen the 302[b]. I do not know what 
it is going to do, but please consider funding the platform 
from which all of the good work that the other speakers are 
taking about is conducted.
    So ending really early if you have question. Thank you, 
ma'am.
    Ms. Lowey. Thank you very much, and one of the aspects of 
last year's bill that I know this committee is very proud of is 
the increased positions at USAID.
    Mr. Naland. Right.
    Ms. Lowey. And the U.S. State Department and in every trip 
I have taken to look at the programs, I continue to be 
impressed with the caliber of people such as yourselves who 
have devoted your life to foreign service and making this a 
better world, so I personally want to express my appreciation 
to you.
    Mr. Naland. Thank you.
    Ms. Lowey. Thank you. Ms. Granger.
    Ms. Granger. First of all, thank you for your service, and 
thank you for the information about staffing and also the 
written information about pay gaps.
    Mr. Naland. Yes, ma'am.
    Ms. Granger. And that is very helpful to us as we go 
forward, so I would say that we do read the material and we do 
thank you for that.
    Mr. Naland. Thank you so much.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 26, 2009.

                           SAVE THE CHILDREN


                                WITNESS

AMBASSADOR MICHAEL KLOSSON, ASSOCIATE VICE PRESIDENT AND CHIEF POLICY 
    OFFICER
    Mr. Klosson. Madam Chairwoman, Ranking Member Granger, I 
really want to thank you for this opportunity to testify on 
behalf of Save the Children, and really highlight the needs of 
vulnerable families as we take up this year's appropriation 
bill, and I want to join others in thanking the subcommittee 
for its leadership on this score.
    Perhaps just a quick point on Save the Children itself. We 
have entered our seventy-seventh year as a nonprofit 
organization working to help children in need, and create 
positive changes in their lives. Unlike some organizations, we 
work both in the U.S. and also overseas, so we are working in 
22 states across the country, and in more than 50 countries 
around the world. Last year we served about 48 million 
children, and we work to help them grow up safe, educated, 
healthy, and living in food secure and economically viable 
households, and we also deliver sort of life-saving assistance 
in emergency.
    Now, I know our country faces pretty daunting economic 
challenges, but these same challenges, I think, pose even more 
dire choices for poor people in the developing world, so at 
times like this it is even more important that we prioritize 
our foreign assistance funding to really help those in need and 
promote sustainable poverty reduction.
    Save the Children's full recommendations were submitted in 
written testimony by our President Charlie McCormack who 
regrets that he could not be here today. They address a pretty 
broad range of needs because we have learned through experience 
the best way to promote the well being of children is in an 
integrated fashion, and I think, given our fiscal situation as 
a nation, I realize that the committee faces Hobson choices in 
addressing this range of needs, but we are convinced that 
investment in these areas really will not only save the lives 
of children and mothers, but it will also pay very strong 
dividends for our standing of our country in the international 
world, and certainly project our values as a nation. So let me 
out of that broad list just highlight three points.
    First, the survival and well being of children, newborn and 
mothers, has to remain a priority. As has been mentioned, each 
year about 9 million kids, over 9 million kids under five die 
of treatable and preventable conditions and more than a half 
million women die from pregnancy and birth-related 
complications. That does not have to be, and if we are able 
through increased investments to accelerate implementation of 
proven low-cost effective interventions, it would prevent many 
of these deaths.
    What am I talking about? I am talking about things like 
oral rehydration salt which for pennies could save the life of 
a newborn who is suffering from diarrhea, or a hat on the head 
of a newborn could keep that newborn warm. This is not highly 
sophisticated science. It does not require very fancy 
hospitals. It is proven, it is low cost, and it really does the 
job in saving lives.
    Save the Children has been educating Americans on this 
issue and through our Knit-one/Save-one campaign I think we 
have been very heartened by the response. This cap is one of 
about 100,000 that were knit by Americans across the country 
that we are sending overseas to help newborns, and these same 
people have written about 5,000 letters to the president urging 
that he prioritize this area.
    So we would urge this committee support the recommendation 
from the U.S. Coalition for Child Survival to invest $900 
million in the child and maternal health programs this year. 
Our estimate suggests that if these programs are funded at that 
level they would reach more than 20 million children and save 
approximately one million young lives, and USAID had documented 
quite well the effectiveness of such programs in a report late 
last year. They showed how maternal and child health assistance 
in 15 countries could really solve between 21 and 50 percent 
reductions in under-five mortality rates over an eight-year 
period. So that is a pretty good result.
    From our perspective, we have a proven body of evidence. We 
have affordable interventions and then we have this problem of 
child mortality. So we think this is really one of the most 
effective investments we as a nation can make. Obviously it 
saves children's lives, and that is important. I mentioned 
earlier that it also sort of speaks to our standing in the 
world, and let me just read to you very briefly the comment of 
a mother who participated in one of our programs and whose 
daughter was saved as a result of learning something called 
``Kangaroo Mother Care'', and this is Grace Mloto of Malawi.
    She said, ``In a few years I will tell my daughter how 
people halfway around the world cared enough to help save the 
babies of Malawi and gave me a chance to teach and help others. 
This support saved your life and gave me my best friend.''
    That is what our programs are doing. I mean, I think that 
is a lot better than sort of public opinion surveys and things 
like that. It really speaks to the broad impact on America's 
standing in the world these kind of programs.
    The second point is on malnutrition. Malnutrition 
contributes to one-third of the under-five deaths, the nine 
million deaths, and I think the recent volatility in food and 
fuel prices certainly exacerbated by the economic turndown 
really threatens to set back a lot of the advances we have seen 
in child survival and in education. So we certainly feel very 
strongly that investments in this area are essential to tackle 
child hunger and reduce child mortality.
    We would ask you to consider what is called the ``Roadmap 
to End Global Hunger''. This was a proposal that has been 
developed by a coalition of some 30 NGOs, Save the Children, 
others in this room, and it maps out a way that the U.S. 
Government could step up to the plate and look at this hunger 
issue from an integrated fashion both from an emergency setting 
all the way to the development setting. It partly focused on 
small shareholder farmers which, as you know, the majority of 
whom are women, and it talks about increasing their access to 
inputs, capital, these types of things, but it also addresses 
the need to expand safety nets and social protection, disaster 
risk reduction, those kinds of programs as well.
    The third and final point is investment in basic education 
which is obviously critical. As Steve Moseley mentioned, there 
is 75 million children out of school, 40 million of whom are in 
conflict-affected countries and half of them are girls, and we 
hear from the children, the children and families that we work 
with sort of day in and day out of the importance of education, 
both the peace in their countries but also to their future and 
the prosperity of that country.
    Save the Children mounted a global campaign called 
``Rewrite the Future'' where we have improved the quality of 
education for millions of children in these very challenging 
contexts, and we think that besides increasing support for 
education overall, that there needs to be particular emphasis 
on these more challenging contexts if we are going to achieve 
universal and equitable education. We certainly have seen the 
benefits of education firsthand in countries like Nepal.
    Early childhood development from our perspective should 
also be part of this effort. It is an important investment in 
school retention, and I think research certainly shows that 
what goes on in the early lives of a child plays a critical 
role in the child's development and ability to grow up and live 
a productive life. So we would certainly support the Basic 
Education Coalition's recommendation for $1 billion funding in 
this account.
    Let me just in conclusion say that we want to thank you for 
your leadership on these issues, your support for sort of 
child-focused foreign assistance priorities. It is very much 
appreciated. As a member of the modernizing foreign assistance 
network, I think we would also welcome further action by the 
committee to strengthen our nation's smart power tools, 
including expanding the capacity of the State Department and 
USAID to do their work. We really need to have meaningful 
modernization in these two agencies so they are more fully 
capable to address global poverty and to really play the role 
that they need to play alongside our colleagues in the Defense 
Department. And if we are able to strengthen their capacity, 
then I think the government would be a better partner with non-
governmental organizations, foundations in the private sector 
in advancing the millennium development goals which government 
subscribes to but which they cannot achieve by themselves.
    Thank you, Madam Chairperson.
    Ms. Lowey. Thank you very much, and please extend my best 
to Mr. McCormack, and I just want you to know how much we 
appreciate the leadership and the professionalism of Save the 
Children and many of your workers are operating in the most 
challenging, which is an understatement, part of the world, and 
we certainly appreciate your efforts and look forward to 
continuing to work together as partners. Thank you.
    Mr. Klosson. Thank you.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                          Thursday, March 26, 2009.

                       HELEN KELLER INTERNATIONAL


                                WITNESS

HENRY BARKHORN, BOARD TRUSTEE
    Mr. Barkhorn. Good morning. Madam Chairwoman, thank you for 
this opportunity to testify on behalf of Helen Keller 
International. I am volunteer member of HKI's board of 
trustees.
    Our organization was founded in 1915 by the deaf/blind 
crusader Helen Keller herself. We are a leading nonprofit 
organization dedicated to preventing the causes and 
consequences of blindness and malnutrition, and to improve the 
survival, health and productivity of disadvantaged populations. 
We support programs in 21 countries in Africa and Asia, as well 
as in the United States.
    I am appearing today to urge you to support funding for 
programs which are vital to our work around the world. With 
respect to blind children, in the world today a child goes 
blind every minute. In the developing world blind children must 
depend completely upon their families with help from the very 
stretched government health system in place in most of these 
countries. They are often neglected, rarely attend school, 
marry or develop skills to become productive members of 
society. All too often they die young.
    I urge the subcommittee to continue the blind children's 
funding at a level of $2 million for fiscal year 2010. This is 
critical for our work in childhood eye health in several 
countries in Africa.
    With respect to Vitamin A supplementation, Vitamin A is 
essential for growth, cognitive development and immune system 
function, and is a key determinant in maternal and child 
survival. One hundred and twenty-seven million pre-school 
children worldwide, and seven million pregnant women in the 
developing world suffer from a Vitamin A deficiency. The 
conditions causes up to half a million children to go blind 
every year, and an alarming 70 percent of those children will 
die within one year of losing their sight.
    This is an example of Vitamin A supplementation, a tiny, 
little packet dropped twice a year onto the tongue of a child 
can prevent blindness at an overall cost of a dollar a year. 
Vitamin A supplementation has been recognized by the World Bank 
and by the Copenhagen Consensus as the most cost-effective 
public health intervention available in the world, and that is 
a strong statement.
    Thanks in part to the funding from and close partnership 
with USAID, Helen Keller International has become a recognized 
leader in the distribution of Vitamin A capsules, and we urge 
the subcommittee to approve $32.5 million for micro-nutrients 
in fiscal year 2001, of which 22.5 million would be for Vitamin 
A.
    With respect to nutrition and HIV/AIDS, nutrition plays an 
important part in maintaining the quality of life for people 
with HIV/AIDS. The lack of proper food and nutrition for these 
individuals diminishes the effectiveness of other prevention, 
care, and treatment strategies. Helen Keller International has 
a highly successful and replicable homestead food production 
program which has been tailored to meet the nutritional needs 
of people living with HIV/AIDS. The program helps communities 
in developing countries establish local food production systems 
that include gardens with micro-nutrient rich fruits and 
vegetables. I urge the committee to continue to support the use 
of funds under HIV/AIDS accounts to address nutrition issues.
    With respect to neglected tropical diseases, neglected 
tropical diseases inflict severe economic, psycho-social and 
physical damage on the poorest populations in the developing 
world. Three hundred million people in Africa, Asia, and Latin 
America are affected by neglected tropical diseases, and that 
is about the same as the population of the United States.
    Helen Keller International supports addressing all of the 
diseases under the program for neglected tropical diseases. For 
decades we have been the recognized leader in addressing two 
blinding NTD, trachoma, and onchocerciasis, otherwise known as 
river blindness. More recently we have had considerable success 
in efforts to combat anemia through interventions to control 
soil-transmitted worms such as tape worms. I urge the 
subcommittee to recommend $70 million for neglected tropical 
diseases in fiscal 2010.
    Finally, with respect to child survival and maternal 
health, as we have heard from a couple of the other testifiers 
this morning, each year some nine or 10 million children die 
before their fifth birthday. I thank the committee for 
increasing the overall child and maternal health funding for 
fiscal 2009 to 495 million, and urge you to continue to expand 
this life-saving program in fiscal 2010.
    In closing, I would like to leave you with some words from 
our founder, Helen Keller. ``If we look at difficulties 
bravely, they will present themselves to us as opportunities.''
    I thank you.
    Ms. Lowey. Thank you very much for all the work you are 
doing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 26, 2009.

                         GLOBAL HEALTH COUNCIL


                                WITNESS

MAURICE I. MIDDLEBERG, VICE PRESIDENT FOR PUBLIC POLICY
    Mr. Middleberg. Good morning, Madam Chairwoman. Thank you 
for the opportunity to testify concerning the foreign 
appropriations for fiscal year 2010, as the Global Health 
Council represents over 560 organizations dedicated to saving 
lives and improving health throughout the world, including many 
of the organizations you have heard from today, including Save 
the Children, AED and Helen Keller.
    The council commends the members of the subcommittee for 
their commitments to the health needs of poor in developing 
countries. We thank you for the recent increases in global 
health programs, especially for the must-needed increases in 
maternal health, child health and reproductive health programs. 
Your support bolsters U.S. leadership, helps secure U.S. 
national interest, and helps partner countries improve the 
health of their people.
    As the Institute of Medicine described convincingly in its 
recent report, U.S. global health program is a pillar of U.S. 
foreign policy. Global health is a shining star in the 
projection of smart power, attracting loyalty worldwide and 
manifesting the values and decency of the American people.
    Moving forward, we respectfully urge the subcommittee to 
sustain the upward momentum of global health programs within 
the context of a much needed comprehensive global health 
strategy that balances three elements:
    First, a global family health action plan aimed at reducing 
child mortality and illness, material deaths and disability, 
and the unmet need for family planning and other essential 
reproductive health services.
    Second, sustaining the U.S. commitment to the fight against 
HIV/AIDS; and third, maintaining a vigorous growing program 
aimed at the major infectious disease, including tuberculosis, 
malaria and neglected tropical diseases. Each element must 
contribute towards building health capacity for the long term.
    For fiscal year 2010, GHC respectfully requests nearly $14 
billion for all global health programs. The resource allocation 
we propose closely parallels the Institute of Medicine's report 
and embodies the comprehensive balance approach we are 
proposing.
    In support of family health, we are requesting $3.2 
billion, including $900 million to accelerate the decline in 
child mortality, $1.3 billion for maternal health to address 
the long-neglected tragedies of maternal death and disability, 
and $1 billion in response to the unmet need for family 
planning among over 200 million women. GHC proposes $1.5 
billion towards the fight against the major infectious diseases 
that pose a global threat, including $800 million for malaria, 
$650 million for tuberculosis, and $70 million for the seven 
neglected tropical diseases.
    We urge that the subcommittee appropriate $9.2 billion for 
HIV/AIDS, including $6.5 billion for bilateral HIV/AIDS 
programs and $2.7 billion for the global funds to fight HIV/
AIDS, TB and malaria. This will expand access to treatment and 
the prevention programs that are the only real hope to 
reversing the pandemic. Further detail on the proposed 
appropriations can be found in our written submission.
    We are mindful of the economic crisis and the fiscal 
challenges. However, the U.S. commitment to improving health 
and saving lives is a vital strategy for advancing U.S. 
national interests and American values. Economic crises fall 
most heavily on the poorest and most vulnerable. Investments in 
global health yield huge economic returns for the beneficiary 
countries by increasing labor productivity, ensuring that 
children could attend school and grow into productive workers, 
and protecting vulnerable households from being immiserated by 
the cost of health care.
    Less well recognized but equally important are the economic 
benefits for the United States. U.S. Government investments are 
multiplied by private sector contributions that draw on the 
U.S. comparative advantages in research, training and 
technological assistance, thereby creating job and economic 
activity at home.
    On behalf of the GHC, I therefore ask that serious 
consideration be given to honoring this request for sound 
productive investments towards securing the health of the most 
vulnerable which will help protect the health of the U.S. 
people, increase U.S. security and stimulate economic growth at 
home and abroad.
    Thank you for your kind attention.
    Ms. Lowey. Thank you for your important work.
    Mr. Rehberg, welcome, and I thank you for being here. Ms. 
Lee.
    Thank you very much for your testimony and all your good 
work.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Thursday, March 26, 2009.

                      AMERICAN HELLENIC INSTITUTE


                                WITNESS

NICHOLAS LARIGAKIS, EXECUTIVE DIRECTOR
    Mr. Larigakis. Good morning, Madam Chairwoman, and members 
of the subcommittee.
    I am here to testify to the subcommittee on behalf of the 
nationwide membership of the American Hellenic Institute on the 
administration's foreign aid proposal for fiscal year 2010.
    Madam Chairman, in the interest of the United States, we 
oppose any military assistance for Turkey until such time as 
Turkey removes its 43,000 troops and 180,000 illegal settlers 
from the island of Cyprus. We oppose any aid for the former 
Yugoslav Republic of Macedonia that is not tied to firearms 
commitment and negotiate in good faith with Greece to find a 
solution to the unresolved issues between Greece and the 
firearm over the name of the latter, and we oppose any 
reduction that might be introduced in the A levels for the U.S. 
peacekeeping force in Cyprus.
    Additionally, we support continuing ESF funds for Cyprus as 
long as it is tied exclusively to bi-communal projects of the 
island as mandated by U.S. law which states that U.S. funds 
support only, and I quote ``measures aimed at reunification''.
    Madam Chairwoman, the United States has a foreign interest 
in Southeast Europe and the Eastern Mediterranean. To the north 
of Greece are the Balkans, Eastern Europe and Russia. To the 
east is the Middle East and to the south, North Africa and the 
Suez Canal. Significant communication links for commerce and 
energy sources pass through the region. Greece is situated in a 
vitally important strategic region for U.S. interests. The 
projection of U.S. interests in the region depends heavily on 
the stability of this region; therefore the U.S. has an 
important stake in fostering good relations between two NATO 
allies--Greece and Turkey, and then achieving a just and viable 
settlement of the Cyprus problem.
    However, Turkey's continuing occupation of Cyprus, its 
intransigence in solving the Cyprus problem, the refusal to 
recognize Cyprus as a member of the European Union is 
continuing violations of Greece's territorial integrity and the 
ongoing human rights and religious freedom violations in Turkey 
threaten and prevent this stability and by extension U.S. 
interests.
    In promoting a multilateral approach to diplomacy and 
foreign policy the U.S. shall look to Greece as an immensely 
valuable link in this region with its close cultural, political 
and economic ties to the Mediterranean countries, Western 
Europe, the Balkans, Eastern Europe and the Middle East, Greece 
is an ideal strategic partner for the United States with regard 
to diplomatic relations with countries from these regions.
    Since founded in 1974, AHI has advocated the consistent 
policy themes regarding Southeast Europe and the Eastern 
Mediterranean, and the relation to the U.S. interests and 
values. I reiterate those themes today.
    U.S. interests are best served by applying the rule of law 
in international affairs. U.S. foreign policy should foster and 
embody U.S. values, including human rights. The U.S. should 
have a special relationship with Greece, recognizing Greece's 
strategic location in Southeastern Europe where the United 
States has important political, economic, commercial and 
military interest. Souda Bay is one of the most important 
facilities for U.S. interests in the entire Mediterranean.
    A Cyprus settlement should not reward aggression, but 
should be based on democratic norms, U.N. resolutions, the EU 
communitair and the partnering decisions of the European 
Commission of Human Rights, and the European Board of Human 
Rights. Cyprus should be recognized as an important partner for 
U.S. strategic interests in the Eastern Mediterranean. The 
United States should not apply double standards to Turkey and 
appeasement of Turkey under rule of law, and aggression and 
occupation in Cyprus, and finally, the U.S. interests are best 
served by supporting ways that will continue to facilitate 
better relations between Greece and Turkey. A detailed 
discussion of these and other issues, including the ecumenical 
patriarch, the Aegean Sea boundary, the recognition of the 
Greece genocide, the Greek minority in Albania, and a visa 
waiver program can be further viewed on our website.
    Finally, Madam Chairwoman, we believe that in the interest 
of regional stability and dispute resolution the United States 
shall promote Turkey, Turkey's emergency as a fully democratic 
state whether or not she enters the EU. This will require 
fundamental changes in Turkey's governmental institutions, a 
significant improvement in its human rights records, the 
settlement of the Cyprus problem on the terms referred to 
above, and publicly acknowledging the existing boundary in the 
Aegean Sea between Greece and Turkey as established by treaty. 
Past and current policy has not had this effect and it needs to 
be critically reviewed by this Congress.
    I thank you, Madam Chairwoman and Members of the 
Subcommittee for being able to present these issues for your 
consideration.
    Ms. Lowey. Thank you so much for taking the time to appear 
before us.
    Mr. Larigakis. Thank you.
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Ms. Lowey. I do not see John Calvelli here, and I know the 
Women's Campaign International is delayed but have included 
their written testimony for the record. We thank you all who 
have appeared before us. Your statements will be carefully 
considered and we appreciate your presenting your very 
persuasive testimony. Thank you very much.
    The Subcommittee on State, Foreign Operations will be 
adjourned.


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Aker, Dee........................................................   506
Baguirov, Adil...................................................   358
Barkhorn, Henry..................................................   276
Barry, D. J......................................................   421
Baumgarten, A. D.................................................   365
Beebe-Center, Horton.............................................    28
Bendick, Robert..................................................    55
Bereuter, Douglas................................................     2
Boucher, Doug....................................................   151
Bourgault, Jeanne................................................    58
Bramble, B. J....................................................   472
Bush, D. L., Sr..................................................   198
Calvelli, J. F...................................................   310
Carter, Joanne...................................................   478
Collins, Ambassador J. F.........................................   540
Counts, Alex.....................................................    69
Davidson, Professor D. E.........................................   347
Dillon, T. C.....................................................   171
Franklin, Nadra..................................................   412
Gillespie, Duff..................................................   438
Greco, Michael...................................................    94
Grieves, Rev. Camon..............................................   365
Gulas, Ike.......................................................   372
Hastings, Hon. A. L..............................................   338
Headley, Fr. William.............................................   506
Huseynov, Javid..................................................   460
Johnson, Andrea..................................................   376
Johnson, Sarah...................................................   224
Kalm, Antony.....................................................   384
Khamvongsa, Channapha............................................   406
Klosson, Ambassador Michael......................................   242
Koenings, Jeff...................................................   402
Kohr, Howard.....................................................    40
Krikorian, Van...................................................   124
Lacy, James......................................................    23
Larigakis, Nicholas..............................................   302
Lauer, Krista....................................................   486
Lawrence, Dr. L. R., Jr..........................................   395
Lisherness, Sara.................................................   492
MacCormack, Charles..............................................   244
Manatos, A. E....................................................   189
Margolies, Marjorie..............................................   329
McCaffrey, Cynthia...............................................   162
McNish, M. E.....................................................   393
Middleberg, M. I.................................................   290
Millan, William..................................................    49
Moix, Bridget....................................................    83
Moseley, S. F....................................................   208
Naland, J. K.....................................................   233
Rogers-Witt, Rev. A. C...........................................   431
Ruebner, Josh....................................................   498
Server, John.....................................................    15
Vartian, Ross....................................................   511
Walker, Eric.....................................................   134

                                  <all>
</pre></body></html>
